<html>
<title> - PRESIDENT OBAMA'S TRADE POLICY AGENDA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 PRESIDENT OBAMA'S TRADE POLICY AGENDA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2011

                               __________

                           Serial No. 112-04

                               __________

         Printed for the use of the Committee on Ways and Means


                  U.S. GOVERNMENT PRINTING OFFICE
65-569                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
GEOFF DAVIS, Kentucky                XAVIER BECERRA, California
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
CHARLES W. BOUSTANY, Jr., Louisiana  JOHN B. LARSON, Connecticut
DEAN HELLER, Nevada                  EARL BLUMENAUER, Oregon
PETER J. ROSKAM, Illinois            RON KIND, Wisconsin
JIM GERLACH, Pennsylvania            BILL PASCRELL, Jr., New Jersey
TOM PRICE, Georgia                   SHELLEY BERKLEY, Nevada
VERN BUCHANAN, Florida               JOSEPH CROWLEY, New York
ADRIAN SMITH, Nebraska
AARON SCHOCK, Illinois
CHRIS LEE, New York
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
RICK BERG, North Dakota
DIANE BLACK, Tennessee

                       JON TRAUB, Staff Director

                  JANICE MAYS, Minority Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of February 9, 2011 announcing the hearing..............     2

                           OPENING STATEMENTS

Hon. Jim McDermott...............................................    29
Ambassador Ron Kirk, U.S. Trade Representative...................     7

                               WITNESSES

Hon. Wally Herger................................................    16
Hon. Kevin Brady.................................................    33
Hon. Devin Nunes.................................................    38

                       SUBMISSIONS FOR THE RECORD

Questions for the Record.........................................    74
National Pork Producers Council..................................    84
National Association of Manufacturers............................    89
National Association of Wheat Growers............................   101
U.S. Chamber of Commerce.........................................   107
Emergency Committee for American Trade...........................   119
American Jewish Committee........................................   129
National District Export Council Inc.............................   130
California Table Grape Commission-1..............................   133
California Table Grape Commission-2..............................   134
National Oilseed Processors Association..........................   135
National Potato Council..........................................   142
California Chamber of Commerce-1.................................   144
California Chamber of Commerce-2.................................   149
Retail Industry Leaders Association..............................   150
United States Council for International Business.................   159
Securities Industry and Financial Markets Association-1..........   164
Securities Industry and Financial Markets Association-2..........   175
International Dairy Foods Association............................   188
Association of Global Automakers, Inc............................   194
Pharmaceutical Research and Manufacturers of America.............   195
General Electric Company.........................................   203
American Federation of Labor & Congress of Industrial 
  Organizations..................................................   208
Public Citizen's Global Trade Watch..............................   212
American Manufacturing Trade Action Coalition....................   222
U.S.-China Business Council......................................   232
Intel Corporation................................................   242
UPS..............................................................   255


                 PRESIDENT OBAMA'S TRADE POLICY AGENDA

                              ----------                              


                      WEDNESDAY, FEBRUARY 9, 2011

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
Room 1100, Longworth House Office Building, Hon. Dave Camp 
presiding.
    [The advisory of the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

   Chairman Camp Announces Hearing on President Obama's Trade Policy 
                                 Agenda

Wednesday, February 02, 2011

    House Ways and Means Committee Chairman Dave Camp (R-MI) today 
announced that the Committee on Ways and Means will hold a hearing on 
the status of President Barack Obama's trade policy agenda. The hearing 
will take place on Wednesday, February 9, 2011, in 1100 Longworth House 
Office Building, beginning at 10:00 A.M.
      
    In view of the limited time available to hear the witness, oral 
testimony at this hearing will be from the invited witness only. The 
sole witness will be United States Trade Representative Ron Kirk. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    International trade has been vital to U.S. growth and prosperity in 
the post WWII era. The United States is the world's largest economy, 
manufacturer, and trader. The future success of American workers and 
business, and the growth of America's economy, require continuing 
America's strong commitment to finding new markets and expanding 
existing ones for U.S. goods and services.
      
    The United States signed trade agreements with three close allies 
in 2007--Colombia, Panama, and South Korea--and all three are still 
awaiting Congressional consideration. The independent U.S. 
International Trade Commission (ITC) has estimated that the combined 
effect of the three pending trade agreements would increase U.S. 
exports by at least $13 billion. President Obama has repeatedly stated 
that increasing U.S. exports by 1% could create 250,000 jobs. The ITC 
has also estimated that implementing the three pending agreements would 
increase U.S. exports by at least 1%. The hearing will provide an 
opportunity to address the resolution of the outstanding auto issues in 
the U.S.-South Korea trade agreement and to discuss plans and timetable 
for consideration of all three of the agreements. The hearing will also 
provide an opportunity for the Administration to explain its response 
to China's trade restrictive practices and non-tariff barriers that 
prevent U.S. companies from competing on a level playing field. The 
hearing further provides an opportunity to monitor progress in areas 
such as the National Export Initiative, the Trans-Pacific Partnership 
negotiations, the Doha Round of World Trade Organization negotiations 
and WTO accessions, as well as other efforts to open new markets to 
U.S. agriculture, goods, and services and address bilateral and 
multilateral trade disputes and concerns.
      
    In announcing this hearing, Chairman Camp said, ``In these 
challenging economic times for Americans, opening new markets to U.S. 
exports provides a proven way to fuel economic growth, create well-
paying jobs here at home, enhance consumer choice, and raise our 
standard of living. An important first step is to consider all three 
pending trade agreements in the next six months. In this increasingly 
globalized economy, we must work together to maximize American 
competitiveness and prevent us from falling behind. I look forward to 
hearing Ambassador Kirk in his first appearance before the Committee as 
he lays out the President's trade priorities.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on current trade issues such as: (1) the 
pending trade agreements with Colombia, Panama, and South Korea; (2) 
addressing the full range of issues impeding American companies from 
selling U.S. goods and services in China and distorting trade flows 
through unfair trade practices; (3) the ongoing Trans-Pacific 
Partnership negotiations; (4) the prospect for trade expansion in 
agriculture, industrial goods, and services through the Doha Round 
negotiations at the WTO and the issues surrounding Russia's efforts to 
accede to the WTO; and (5) management of trade disputes and concerns 
and other trade issues.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Wednesday, February 23, 2011. Finally, 
please note that due to the change in House mail policy, the U.S. 
Capitol Police will refuse sealed-package deliveries to all House 
Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. Good morning. The committee will come to 
order. We are opening the hearing on President Obama's trade 
policy agenda. I want to welcome everyone here, and also extend 
a special welcome to our guest, United States Trade 
Representative Ambassador Ron Kirk.
    Ambassador, this is the first time you have been invited to 
appear before this committee, so we are looking forward to a 
thorough discussion of the Administration's trade policy 
agenda, and particularly the path you see forward on the three 
pending trade agreements.
    International trade has been a cornerstone of United States 
foreign policy for the past 60 years. We must have a robust 
trade agenda to ensure our economic future and create U.S. 
jobs. While the President has often spoken about the merits of 
trade over the past 2 years, there is little to show for it. 
The American people are demanding more and more, and deserve 
more from this Administration when it comes to the job-creating 
potential of our trade agreements.
    Now, we have seen some steps in the right direction in 
recent months, and I appreciate your work and the President's 
work on the South Korea agreement. But there is much more we 
need to do, and I fear we are ceding our influence and 
authority to the European Union, China, and countries that 
don't have our best interests at heart, diminishing our 
influence on the international economy, foreign policy, and 
security issues.
    Most pressing on the trade agenda are the pending 
agreements with Colombia, Panama, and South Korea. As I noted, 
the President's leadership has helped move the South Korea deal 
forward. But there has been no similar action with regard to 
the Colombia and Panama agreements.
    Where is the path forward for these agreements? Why isn't 
there a clear identification of the outstanding issues, an 
outline of reasonable steps that must be taken to address those 
issues, a time frame for resolution, and a commitment to 
action?
    While the President made positive reference to completing 
the agreement with South Korea in his State of the Union 
address, Colombia and Panama were mentioned only briefly, 
almost as afterthoughts, with no action plan or commitment, 
characterizing them as items the Administration intends to, and 
I quote, ``pursue.''
    But we already have trade agreements signed three and a 
half years ago. And Ambassador, I hope you will provide clarity 
on what the President meant and lay out today a concrete 
timeline for consideration of all three agreements. And as I 
have said repeatedly, I would like to see all these three 
agreements considered by July 1st.
    And frankly, the lack of commitment on these critical, job-
creating agreements is hindering the rest of our trade agenda, 
most notably ATPA and TAA. The President's unwillingness to 
engage, especially on Colombia, has ground everything else to a 
halt and our workers are suffering as a result.
    The Administration's strategy makes no sense. These 
agreements are important to U.S. strategic and economic 
interests, and they will help support jobs here in the United 
States--250,000 jobs, according to the President's own measure. 
And given that our unemployment rate has been at or above 9 
percent for the last 21 consecutive months, we must explore all 
possible opportunities to sell to the world and create and 
support existing jobs in the United States.
    I am equally concerned that the failure to move these 
agreements will severely disadvantage U.S. business, workers, 
farmers, and ranchers who now sell their products in these 
markets. Other countries recognize the value of these markets 
and are signing agreements that lower barriers for their 
exports and seize our opportunities.
    In addition to our pending trade agreements, we must focus 
on enforcing our rights worldwide. Take China. It is now our 
second-largest trading partner overall and our third largest 
export market. While China presents the potential of 1.4 
billion customers for our exports, China purposefully impedes 
market access for U.S. goods and services, and blatantly steals 
the intellectual property of American businesses. The litany of 
China's trade-distorting policies is deeply troubling and 
cannot be allowed to stand.
    Part of our strategy for addressing these issues should 
include resumption of our bilateral investment treaty 
negotiations. I strongly support the Administration's efforts 
to promptly conclude an ambitious Doha Round of negotiations at 
the World Trade Organization, and hope that renewed efforts 
over the past few months will lead to success.
    I also strongly support the Administration's efforts to 
negotiate the Trans-Pacific Partnership. I hope the President 
will be able to conclude a high standard agreement when he 
hosts the APEC leaders in nine short months. Such an agreement 
would show our commitment to the fast-growing Asia-Pacific 
region as well as create American jobs by opening markets. A 
robust trade agenda puts U.S. business, workers, farmers, and 
ranchers back on the offense. Let's seize this opportunity.
    I look forward to hearing your testimony, Ambassador Kirk, 
on the Administration's ideas on how to kick-start the U.S. 
trade agenda. I will now yield to the ranking member, Sandy 
Levin, to make an opening statement.
    Mr. LEVIN. Thank you, Mr. Chairman, and welcome, 
Ambassador.
    I am disappointed that we start today's hearing without 
action to extend the Trade Adjustment Assistance program 
scheduled to expire in just a few days. TAA has been a good-
faith effort for nearly 50 years to assist workers who have 
lost their jobs through trade and globalization.
    As a result of the 2009 reforms, an additional 170,000 
workers are eligible for TAA, which will help them secure new 
good-paying jobs. Starting Tuesday, tens of thousands of 
displaced workers in our country will be affected, and I 
strenuously urge my Republican colleagues not to let this vital 
program lapse.
    Congressional Democrats have been actively working to shape 
a new trade policy that is responsive to the changing dynamics 
of a global economy. We rejected the passive hands-off approach 
of the last Administration by embracing expansion of trade in 
ways that assess its impact and broaden the benefits from 
expanded trade.
    Carrying out this new policy, we succeeded in pushing for 
the inclusion of enforceable worker rights and environmental 
standards, beginning with their incorporation in the Peru FTA. 
We have fought for vigorous enforcement of basic rules of 
competition with our trading partners. We have insisted that 
trade must be a two-way street, not a one-way street, in 
critical areas of trade.
    This is in sharp contrast to the approach of the last 
Administration, whose view was that trade was good in and of 
itself and that more trade automatically was better, regardless 
of its terms. As President Obama responded, and I quote, ``We 
just went through a decade where we were told that it didn't 
matter. Just keep on importing, buying stuff from other 
countries, and everything is going to be okay. But it was built 
on a house of cards.''
    The Obama Administration has undertaken a vital effort to 
implement a new and improved trade policy, for example, a 
commitment to the enforcement of existing trade agreements and 
trade laws. That was clear from the China safeguard action on 
tires. The previous Administration, on four occasions, refused 
to use that safeguard. Recent data indicates that the safeguard 
action has helped to make possible an increase in U.S. 
production and employment in U.S. tire manufacturing.
    The commitment to enforcement is also clear from the filing 
of the first case ever on labor provisions in the trade 
agreement with Guatemala.
    A commitment to two-way trade was embodied in the 
President's insistence that we go back and change the Korea 
Free Trade Agreement to finally knock down the barriers there, 
where automotive trade accounts for 75 percent of the $10 
billion U.S. trade deficit with Korea. This would not have 
happened if the Republicans had succeeded in their earlier 
insistence that flawed agreements be approved.
    Likewise, in the case of Panama, the Administration pushed 
for an agreement to address Panama's status as a tax haven, and 
we understand Panama is working to ratify and implement that 
agreement now. This Administration has also been working on 
efforts started several years ago to ensure that Panama's labor 
laws comply with basic international standards and with its FTA 
obligations. Because of our efforts, there are now important 
labor law changes pending before the Panamanian legislature.
    With regard to Colombia, as we have pointed out repeatedly 
and as indicated consistently in the State Department and ILO 
reports, there are serious outstanding issues relating to the 
Colombia FTA. Colombian labor laws fall short of ILO norms, and 
workers struggle to exercise their rights to associate and 
collectively bargain.
    Persistent problems include abuse of cooperative and other 
forms of contracting, employers' direct negotiation with 
workers when unions are present, and prohibitions on the right 
to strike. Moreover, enforcement of labor laws is weak.
    Union worker violence in Colombia remains unacceptably 
high, if not the highest in the world. Limited progress is 
being made in the investigation and prosecution of those 
responsible. Additionally, reports indicate that threats 
against union workers and others have increased. To date, there 
has been little concrete action to date to pursue these cases.
    As I observed during my five-day fact-finding trip in 
Colombia last month, the new Santos administration has now 
articulated a different approach from its predecessor that 
provides an opportunity for serious discussions between the two 
governments on these concerns. But we should be very clear that 
the burden is on the Colombian government to act and address 
these concerns that have been made abundantly clear to them for 
years. The only adequate measuring stick is progress on the 
ground.
    There are other areas where I believe we can do more to 
change U.S. trade policy. Mr. Camp, the chairman, has talked 
about China's distorting, trade-distorting policies. I also 
urge that the Administration take a more assertive stance to 
address China's currency manipulation.
    As I conclude, let me just say that we are already taking 
action on many fronts. Republicans have expressed impatience 
with changing U.S. trade policy and have called for us to 
return to the failed policies of the past and approve flawed 
trade agreements.
    So let me be clear. We will not go back. Thank you, Mr. 
Chairman.
    Chairman CAMP. Thank you.
    Today we are joined by Ambassador Ron Kirk, the United 
States Trade Representative. Prior to his work in the Obama 
Administration, Ambassador Kirk had a distinguished career in 
both the private sector and government. Notably, he was the 
mayor of Dallas from 1995 until 2001, at which time, I should 
add, he saw firsthand the benefits of trade agreements and was 
a strong proponent for NAFTA.
    Ambassador Kirk, we welcome you and look forward to your 
testimony. I would ask that you keep your testimony to 5 
minutes. And Mr. Ambassador, your full written statement will 
be made part of the record. And you are recognized for 5 
minutes. Welcome.

     STATEMENT OF AMBASSADOR RON KIRK, UNITED STATES TRADE 
                         REPRESENTATIVE

    Ambassador KIRK. Thank you, Mr. Chairman and Ranking Member 
Levin, members of the committee. It is indeed an honor for me 
to have an opportunity to visit with you today.
    In his State of the Union address, President Obama told 
America that the future is ours to win if we rise to the 
consulting. To compete for and win the jobs and industries of 
the future, America must out-innovative, out-educate, and out-
build the rest of the world.
    USTR is doing our part to keep America globally 
competitive, and our work is producing results. U.S. goods and 
services exports through the first 11 months of 2010 were up 
$239 billion over the same time period in 2009, and we are on 
pace to reach or exceed President Obama's National Export 
Initiative goal of doubling exports by the end of 2014.
    To ensure that American firms continue to generate jobs and 
economic growth, opening global markets and efficient America's 
trade rights must remain key components of our economic 
recovery effort. After extensive consultations with the 
business community, with labor, Members of Congress, in 
December we concluded a U.S.-Korea trade agreement that is 
better for America's auto industry and better for America's 
auto workers, and it is winning widespread support here in 
Congress.
    To bring home its promise, which is billions of dollars in 
exports and tens of thousands of jobs here at home, the 
President will submit the U.S.-Korea trade agreement to 
Congress in the next few weeks, and looks forward to working 
with you to secure its approval this spring.
    But we aren't going to stop there. With that same 
engagement and cooperation, we want to work to address 
outstanding concerns relating to the Panama and Colombia trade 
agreements. If we are successful, we will move these forward as 
well.
    I can tell you today that the President has directed me to 
immediately intensify our engagement with our partners in 
Colombia and Panama with the objective of resolving the 
outstanding issues as soon as possible this year, and bringing 
those agreements to Congress for consideration immediately 
thereafter.
    But I must make it clear. There remain serious issues to be 
resolved before these agreements can be submitted for 
congressional consideration, and some of these issues go to our 
core U.S. values and interests, such as the protection of labor 
rights. Any timetable will be contingent on the successful 
resolution of these issues.
    For example, with regard to Colombia, it will be imperative 
to resolve issues regarding laws and practices impacting the 
protection of internationally recognized labor rights, as well 
as issues concerning violence against labor leaders and the 
prosecution of the perpetrators.
    Colombia and Panama have begun to take important steps, and 
we think that is a good signal. But more remains to be done. We 
will be consulting closely with you and major stakeholders, 
including labor and human rights groups, throughout this 
process.
    We will not be left behind, however, as others open markets 
and take our market share. The President has made one thing 
abundantly clear, however. We will not sign agreements just for 
agreements' sake. They must be enforceable and of the highest 
standard and in the interests of America's workers, farmers, 
businesses, and entrepreneurs.
    In the Trans-Pacific Partnership, now the world's most 
dynamic regional trade negotiating market, we are moving 
forward to unlock the Asia-Pacific through a 21st century trade 
agreement. In the Doha talks, we seek an ambitious outcome in 
which all countries, including the advanced emerging nations, 
provide market access commensurate with their global economic 
roles.
    And our efforts to bring Russia into the World Trade 
Organization will include working with you this year to grant 
Russia permanent normal trade relation status so that U.S. 
firms and workers fully benefit from Russia's accession to the 
WTO.
    This year, the United States will host the 21 economies of 
the Asia-Pacific Economic Cooperation Forum. With them, we will 
work to make it cheaper, easier, faster for our firms to trade 
in a greener regional economy. And we are doing the same with 
our partners in Europe and throughout North America.
    Aggressive enforcement will continue to accompany these 
efforts. We have kept our promise to hold our trade partners 
accountable, from steps to address a harmful surge of Chinese 
tires, to important wins at the WTO for our aerospace and 
agricultural sectors, to the first labor enforcement case ever 
brought under a U.S. trade agreement.
    Our agenda will only succeed if we make clear to the 
American public what is at stake in global markets and if we 
keep faith with America's workers, including renewing trade 
adjustment assistance. We are also asking Congress to keep 
faith with some of the world's poorest economies and create 
American jobs by renewing the generalized system of preferences 
in the Andean Trade Preferences Act, and let's do so for a 
longer period of time than a few months.
    I believe, Mr. Chairman and members of the committee, that 
we can use common sense to find common ground on trade. And I 
look forward to working with you, and I look forward to taking 
your questions. Thank you.
    [The prepared statement of The Honorable Ron Kirk:]

    [GRAPHIC] [TIFF OMITTED] T5569.001
    
    [GRAPHIC] [TIFF OMITTED] T5569.002
    
    [GRAPHIC] [TIFF OMITTED] T5569.003
    
    [GRAPHIC] [TIFF OMITTED] T5569.004
    

                                 <F-dash>

    Chairman CAMP. Well, thank you very much, Ambassador.
    As I listened to your testimony, I first want to say I 
appreciate your comments on the South Korea trade agreement. It 
was signed in June 2007. Korea is the world's eighth largest 
economy. The E.U. agreement with Korea is expected to be 
effective July 1st, so I think your timeline of a few weeks is 
a very important one.
    In terms of the other agreements with Panama having been 
signed in June of 2007--they have signed this tax information 
exchange agreement--they recently signed trade agreements with 
the E.U. and Canada.
    With regard to Colombia, it was signed in November 2006. 
Since that time, our exporters have paid over $3 billion in 
duties to Colombia. Canada will implement a trade agreement in 
June. The E.U. is soon to complete. Colombia is our largest 
export market in South America.
    So with regard to those agreements, I appreciate the 
language that you want to complete those by this year. But 
frankly, those are statements I would have expected two years 
ago. We are seeing other countries move forward dramatically. 
We are losing market share in those countries as they develop 
trade relationships with other places. We need specific, 
concrete steps.
    Can you tell me what specific things or items need to occur 
with regard to the Colombia and Panama agreements that would 
allow the Administration to move forward?
    Ambassador KIRK. Well, first of all, Mr. Chairman, let me 
assure you we share your concern with respect to the 
competitive market that is developing in South America and 
their very aggressive efforts to sign other free trade 
agreements.
    But we also share a very firm belief, and an unshakeable 
belief, that the only way we can go forward in a manner that I 
think all of us would like to is that if we work together 
collaboratively, just as we did on the Korea FTA, and not just 
hear from those that, frankly, want me to cut the gas line and 
put the pedal to the metal and go forward; and not just those 
that, frankly, are stomping on the brake and say, do nothing. 
We have got to find a way to find common ground on some of 
those core values that, at least for the Obama Administration, 
we won't compromise on.
    And we want to get these done, but we want to get them done 
in a way that we address the underlying concerns about labor 
rights. This is a little bit different than Korea in which, 
frankly, we were addressing issues of market access. These are 
more fundamental issues.
    But what we want to do, and what we will do, is intensify 
our engagement over the next several weeks, I am sending a team 
to Colombia next week. As you know, Ranking Member Levin, I 
think, visited Colombia during the January recess. Finance 
Committee Chairman Baucus is going to go down. We will then 
meet with all the stakeholders, human rights groups, and come 
up with a workable plan, and sit down with our partners in 
Colombia to address those.
    Chairman CAMP. When you say ``we,'' are you planning to go 
to Colombia and Panama as well?
    Ambassador KIRK. I don't know that I am going to go. USTR 
is sending a team. I may go, and I may wait and see what the 
plans are, as they evolve, for the President's visit to South 
America later this spring.
    Chairman CAMP. Well, I guess my point was that the time for 
generalities has passed, to say, we need to continue to work 
forward on these. We really need specifics. And we need an 
action plan of benchmarks that we can meet to move this 
forward.
    I think these have languished long enough, really far too 
long. And to the extent you can shed light on any specific 
items, I think we would all be enlightened.
    Ambassador KIRK. Well, I want to do that, Mr. Chairman. But 
we are using the same approach as we did last year when--I 
think it was in June at the G20 Forum--President Obama directed 
our office to sit down and negotiate with our partners in 
Korea. We were able to do that in a reasonably efficient period 
of time.
    We want to take that same approach with respect to Panama 
and Colombia. The issues are different. As I said, in Colombia 
there are longstanding concerns in terms of the rights of 
workers and violence against union organizers. In Panama, we 
have made good progress on a number of the issues in terms of 
addressing some of their labor law concerns.
    As I understand, they have worked with our Department of 
the Treasury to address the issues of their having been labeled 
a tax haven by OECD, and are moving on the tax information 
exchange agreement.
    Chairman CAMP. With Panama, is there anything left for the 
Panamanians to do?

    Ambassador KIRK. There are still a couple of concerns over 
some recent changes to their labor law. But we have been in 
consultation with the Panamanian government in trying to get 
those resolved to our satisfaction.

    Chairman CAMP. All right. Thank you.
    Mr. Levin may inquire.

    Mr. LEVIN. Thank you. Mr. Chairman, I think that your 
question has helped to frame the issue. You said, ``the time 
for generalities''. They weren't generalities. The issues with 
Korea were very specific.
    The way it was negotiated did not assure access to the 
market for our automotive goods. You worked on this. It was 
very specific. They were shutting us out, shipping 500,000 cars 
a year. We were shipping 5,000. Hyundai has 1500 dealerships 
here, I think. Ford has one. Our automotive producers and their 
suppliers insisted that trade be a two-way street. It was very 
specific.
    If the Republicans had had their way, or the Bush 
Administration theirs, we would have approved the Korea Free 
Trade Agreement essentially having a major part of our economy 
shut out from their market when they had complete access to 
ours.
    As for Panama, we started discussions. The issues were very 
specific. They related to the violation by Panama of basic 
international standards, as outlined in our State Department 
reports and in the ILO reports, in terms of worker rights, and 
its states as a tax haven. We tried to work with them, but then 
they elected someone as the Speaker of the House who had an 
arrest warrant out for him for killing an American, and those 
discussions stopped. It was very specific.
    When it comes to Colombia, Mr. Ambassador has laid out the 
areas where there are issues. And we have been discussing these 
for years with the Colombians. The ILO and State Department 
reports have spelled these out year after year after year.
    Now, there is a new administration in Colombia which says 
that it now wants to address these issues that were not 
satisfactorily addressed by the previous administration. And 
now the Ambassador has said that there is an effort to see if 
common ground can be reached.
    So I think there isn't a lack of specificity. There has 
been a lack of a willingness to work with us to resolve basic 
important economic issues.
    Let me just ask you, if I might, Mr. Ambassador, about TPP 
and proceeding. You intend to table something next week, do 
you, in terms of TPP? And I think it is important we proceed, 
but in the right way. There will be a tabling of some proposals 
next week?
    Ambassador KIRK. Yes, there will. As you know, we have had 
four rounds of talks. We are moving very aggressively to meet 
our own goal, which is aspirationally, to craft a trade 
agreement for the 21st century with the highest standards in 
every area across the board. We will be meeting in Chile next 
week for the first round of more intense negotiations, and we 
will begin tabling proposals in certain categories at that 
time.
    Mr. LEVIN. Everyone should note that we have trade 
agreements with most of the participants in TPP. It is the 
newcomers in terms of a trade agreement, Vietnam and now 
Malaysia who raise some important issues, not only in terms of 
worker rights, which is important, but in terms of agriculture, 
et cetera.
    And as we have discussed, I hope very much that before 
those proposals are tabled, that there will be further 
consultations with this committee regarding the specifics, 
including those relating to investment.
    Ambassador KIRK. We will. And we have--and I think as you 
know, Mr. Chairman, we have had the most extensive 
consultations with this committee and your companion committee 
of jurisdiction in the Senate, as well as all of the 
stakeholders on TPP as we have ever done before, and we will 
continue that.
    But this is an opportunity in which, one, I think we have 
all benefitted from the fact that we are starting with a blank 
sheet of paper, so to speak. We aren't burdened by some of the 
arguments that have derailed some of our trade agreements in 
the past.
    But it is an opportunity for the United States to be in the 
lead in crafting the architecture for what we hope will be the 
most advanced trade-liberalizing free trade agreements in one 
of the most dynamic regions of the world.
    Mr. LEVIN. More consultation is needed. Thank you.
    Chairman CAMP. Thank you. I just want to comment that I was 
concerned about market access on the South Korea agreement from 
the beginning. But that really sort of begs the question. I am 
not really interested in why these agreements weren't passed 
two and a half years ago. I am interested in why they are not 
being passed now, given all that has happened.
    So with that, I will recognize Mr. Herger for 5 minutes.
    Mr. HERGER. Thank you, Mr. Chairman.
    I have a timeline here of key President Obama 
Administration statements regarding the Colombia trade 
promotion agreement. Unfortunately, I won't have time to go 
through all of it in my 5 minutes. However, I will like to have 
it included in the record, and I will just touch on some 
highlights.
    [The information follows The Honorable Wally Herger:]

    [GRAPHIC] [TIFF OMITTED] T5569.005
    
    [GRAPHIC] [TIFF OMITTED] T5569.006
    
    [GRAPHIC] [TIFF OMITTED] T5569.007
    
    [GRAPHIC] [TIFF OMITTED] T5569.008
    
    [GRAPHIC] [TIFF OMITTED] T5569.009
    
    [GRAPHIC] [TIFF OMITTED] T5569.010
    
    [GRAPHIC] [TIFF OMITTED] T5569.011
    
    [GRAPHIC] [TIFF OMITTED] T5569.012
    
    [GRAPHIC] [TIFF OMITTED] T5569.013
    

                                 <F-dash>

    Mr. HERGER. Ambassador Kirk, the President's 2009 trade 
policy agenda released in February of that year two years ago 
stated, ``We are in the process of developing a plan of action 
to address the pending trade agreements in consultation with 
Congress. We plan to establish benchmarks for progress on that 
Colombia FTA.''
    In April of 2009, during a speech at Georgetown University 
School of Law, you stated, ``We are looking for new solutions 
to the issues that have dragged on in existing free trade 
agreements. At the Summit of the Americas, President Obama 
instructed me to lead a review of the Colombia agreement to 
deal with outstanding issues there.''
    Now let's skip to about a year later, in March of 2010, and 
your testimony at Senate Finance hearings. You stated that the 
pending FTAs were a priority, and that USTR was working to 
resolve the outstanding issues so that they could move forward 
with the agreements.
    And in response to a question on the Colombia FTA, you 
stated the following: ``We are hopeful we can come to some 
solution with Members of Congress over the next several months 
so we can go back to Colombia with specific goals. What we 
don't want to do is keep moving the goalpost. This agreement is 
almost singularly to the benefit of the United States.''
    Moving forward a few months to July 2010, in announcing the 
establishment of the President's Export Council, the President 
again reiterated that the Administration was working to resolve 
the ``outstanding issues'' with the pending FTAs with the goal 
of submitting them to Congress ``as soon as possible.''
    Now, in 2011, during a speech at Third Way, Mr. Ambassador, 
you stated, ``We took the time to do the Korea FTA right. And 
so we think it is important: Just as we have done with Korea, 
let's not short-circuit that process with Panama and Colombia. 
They are just as important to us.''
    Mr. Ambassador, how much longer will the wait continue 
until the Colombia agreement is ready for Congress? It has been 
two years since the Administration announced its plan to 
develop benchmarks on Colombia. We waited a year. And then the 
Administration again stated that it is working on a list of 
recommendations for the Colombians.
    Where are these recommendations, these benchmarks that the 
Administration wants to see in place? And again, how much 
longer do we have to wait until the Colombia agreement is 
ready?
    Ambassador KIRK. I appreciate your recitation of our 
commitment on that. We are firm in that. And hopefully, Mr. 
Herger, it won't be much longer.
    We share your concern. We want to move forward on these 
agreements. But the reality is there is a very wide--you can 
tell from this committee, there has been a very wide divergence 
of thought as to how we ought to proceed. And one thing 
President Obama instructed me was to sit down with those on 
both sides of the aisle, stakeholders of every opinion, about 
how we are to go forward and see if we can't find a common way 
forward.
    But we also made a firm commitment, when we came into 
office, that we didn't feel it was our responsibility just to 
pick up all of these trade agreements as they were and move 
forward. We took the time to take a step back and take a 
strategic look at how we wanted trade to fit into our overall 
economic policy and our number one goal. And that is how we get 
this economy going and how we create jobs.
    And that included not only looking at and examining these 
free trade agreements, but the work that we have done on 
enforcement, the work we have done to engage labor and 
communities and business to come up with a plan that will allow 
us to do as we have done with Korea. And as I announced today, 
the President has directed us to do that same thing in the 
coming months with our partners with Colombia and Panama.
    As Ranking Member Levin noted, we have new leadership in 
Colombia. Vice President Garzon was here last week. We have met 
with him. There is a renewed sense, I think, of urgency on both 
parts. And we will be meeting with them in the coming weeks and 
months to address those issues.
    And it is different in the case of Korea because it isn't 
just related to market access. It goes to some of those core 
values that I think many Americans want Congress to take into 
account as it relates to how we treat and respect the rights of 
workers. And that is an issue that, at least for the Obama 
Administration, we won't compromise on.
    Mr. HERGER. Well, Mr. Kirk, I appreciate that. But that 
sounds very much like we have been hearing for the last two 
years.
    Chairman CAMP. And the gentleman's time has expired.
    Mr. Johnson is recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman. First I want to 
welcome my friend from Dallas. Too bad you weren't there; the 
Super Bowl might have been a better place to go.
    Ambassador KIRK. Unfortunately, I was there, sliding 
around. But I didn't go to the game.
    Mr. JOHNSON. God bless you. Ambassador Kirk and I have 
known each other for a long time. I am glad he has finally had 
the opportunity to visit here on this committee. I would like 
the committee to know, for the record, he and I used to bet 
dinners, and he still owes me one.
    Now, Mr. Ambassador, as a former Dallas mayor, I know you 
are well aware of the benefits of trade to our area. And I am 
sure you know the Dallas area is the ninth largest metropolitan 
exporter in the United States. In 2008 alone, Dallas exported 
almost $7 billion to both NAFTA and CAFTA. The numbers go on 
and on.
    In 3 years before the U.S.-Australia agreement, exports 
from Texas to Australia averaged $800 million. In the three 
years after that trade agreement, Texas exports averaged $1.3 
billion per year, an increase of 66 percent.
    Before the U.S.-Chile agreement, Texas exports to Chile 
were declining. Since the agreement, Texas exports to Chile 
have increased by 107 percent.
    You know, those numbers just tell me that we are spinning 
our wheels. This agreement was signed in 2007, and this is 
2011, and we still haven't finished them. Now, I would like to 
know why we are delaying because other nations in the world are 
taking our place in the trade environment. And it is because 
you haven't been able to finish the job. And most of it, you 
are telling me, is labor-related.
    I would like to know your opinion on that and what you 
intend to do. And I will tell you what. You get these three 
agreements done, you don't have to buy me a dinner.
    [Laughter.]
    Ambassador KIRK. Sam, I have enjoyed your friendship, and 
we have shared a lot of plates of Mexican food over the years. 
And it would be loath for me to quarrel with a good friend in 
public, but I am not so sure who holds which last dinner. But 
we won't make dinner contingent on these agreements.
    Let me say this. I was incredibly honored and humbled when 
President Obama asked me to serve the Administration in this 
capacity. And frankly, Sam, you know there were a lot of people 
who were a little bit skeptical of me coming from Dallas, for 
the reasons you articulated.
    We believe in trade. We understand it. We have seen the 
impact of it in our city and our state. Texas is the number one 
exporting state in the country. So you don't need to convince 
me how important these agreements would be to our economy.
    But when I raised my hand and took that oath, I agreed to 
be United States Trade Representative for the entire country. 
And like the congressman over here, my wife is from Detroit. 
And so I brought with me not just our passion for exports that 
we have in Texas, but I also brought with me the concern and 
frustration of all of my in-laws in Detroit, in Cleveland, in 
Pittsburgh, who when I showed up and told them I was going to 
be the Trade Representative, thought I was a two-headed monster 
because they believe they haven't benefitted from trade.
    And so what we have committed ourselves to doing is trying 
to find that common ground because the only way we can go 
forward in a way that allows our farmers and ranchers and 
manufacturers and states that want us to go is we have to keep 
faith with the rest of America that wants to know we have a 
trade policy that works for everybody and not just for some of 
us.
    You know I like African proverbs, and one of my favorites 
is pretty simple. And it says, ``You should take no comfort 
from the hole in my end of the boat.'' And the problem of too 
much of our trade debate is in places sometimes like Texas or 
Florida or Washington, we just look at our heads and say, poor 
Pittsburgh. Poor Carolinas. Poor Detroit. And we aren't going 
to get there.
    That is why these agreements were stalled. I don't have to 
tell you there are strong differences on this committee whether 
we go forward or not. What we have been doing is trying to not 
only craft trade policy that allows us to have open, fair 
access to these markets, address that asymmetry we have with 
many of them, but also helps us restore the American public's 
faith that trade can work for us, that we can create jobs here.
    That is what we did successfully, I think, with Korea, and 
that is what we are working to do with Panama and Colombia.
    Mr. JOHNSON. It will create jobs. Right.
    Ambassador KIRK. It will create jobs. But----
    Mr. JOHNSON. But how about getting it done, all three of 
them? All three of them. Can you tell us you will do that?
    Ambassador KIRK. I can do it if I can get this committee to 
come together and agree that just as important as it is to open 
up markets, it is equally important to make sure that we keep 
faith with America's workers and we don't compromise on our 
core values of standing up for workers' rights. If we can come 
together on that, we can do anything. We did it on Korea. We 
need to do it on Panama and Colombia.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Chairman CAMP. Thank you. Mr. Stark is recognized.
    Mr. STARK. I would yield to Mr. McDermott.
    Chairman CAMP. Mr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Welcome, 
Ambassador. Good to see you here. On a historical note, I would 
point out to the Members of the Committee, who want specifics. 
In 5 days, the TAA program ends. 150,000 American workers will 
be ending their trade adjustment assistance. Now, I wonder if 
you are serious. It was on the calendar yesterday, but you took 
it off the calendar. It is not on the calendar today. This is 
Wednesday.
    Is it going to be on Thursday or Friday, and be passed 
through the Senate by Monday, so that 150,000 workers in this 
country do not lose their assistance? If you are serious about 
trade and you want to make it all about somebody else out there 
and ignore the people in the United States, the workers, you 
are going to have a tough time.
    But let me move to another issue because there are other 
things besides Colombia and Panama. How are we going to work 
and move forward on intellectual property protection in China? 
How are we going to keep the focus on this issue in China? I 
know when the Chinese were here, with respect to the piracy of 
business software, they continue to be long on promises and 
very short on performance.
    It practically didn't come up when President Hu was here, 
and it doesn't appear that the Chinese are stepping up to 
address the massive piracy which is underway in their 
enterprises, including the state-owned enterprises which put 
U.S. companies at a competitive disadvantage.
    It seems to me that the Chinese are very clever in how they 
have moved around. The Chinese audit authority has the ability 
to track how much money in the China procurement system is 
being spent. That is helpful, but it doesn't end the piracy. 
They don't check as to whether or not the software used in 
their government is legal.
    Now, what is the plan? What do we need to do to help you 
enforce the good words that come out of Beijing? They are nice 
words. I appreciate them. But we would like to have some help 
from you about how we can help to enforce that.

              STATEMENT OF HONORABLE JIM MCDERMOTT

[GRAPHIC] [TIFF OMITTED] T5569.027

[GRAPHIC] [TIFF OMITTED] T5569.028

[GRAPHIC] [TIFF OMITTED] T5569.029


                                 <F-dash>

    Ambassador KIRK. The issue of piracy and copyrighting of 
America's intellectual goods and work product is one of our key 
concerns at USTR. It is a key component of our enforcement 
efforts, and it is a key part of our dialogue with China.
    And I would only add one correction, perhaps, to your 
introduction of this subject. This issue did come up in 
President Hu's visit with President Obama. He addressed it 
directly.
    As you know, we recently concluded the Joint Commission on 
Commerce and Trade, which Secretary Locke and I take the lead, 
in December. We did get a commitment from the Government of 
China to begin to address more rigorously the absence of using 
legitimate software in their government procurement.
    During President Hu's visit, we got two additional 
important commitments that, one, they are going to provide 
money for it. The Chinese have said they would do this a number 
of times, but they didn't give their governments and sub-
governments any resources to purchase legitimate software. For 
the first time, they have committed to do that. And secondly, 
we did get them to make a commitment to audit that.
    But as you know, our engagement with China is important. It 
is complex. There is a reason that we have regular engagements 
with China through the JCCT as well as strategic economic 
dialogue. And we will be as diligent as you say the Chinese are 
crafty in pressing them to make sure they honor and respect 
American intellectual property and copyrights because that is 
an extraordinary opportunity for our industries to grow into 
that market.
    Mr. MCDERMOTT. I would like to also just thank you. I 
appreciate that. If there are things that we can do, I hope you 
will let us know because I think this committee would be 
interested in trying to support the USTR in their enforcement 
efforts.
    We know that the Bush Administration, Peru passed, the free 
trade agreement, after the agreement made on May 10th by Mr. 
Rangel and Mr. Levin with the President and the USTR in that 
Administration.
    You are about to table something in Chile, and I hope that 
you don't weaken the things that were agreed upon in that May 
10th agreement that made possible the Peru agreement, 
particularly the access to medications. I think that is one of 
the issues that gets slipped under the table. We think of 
environment and we talk about labor, but sometimes the access 
to medication provision in there gets lost. I hope that that 
will be a part of what you table on Monday when you get to 
Chile.
    Chairman CAMP. If you could just respond briefly because 
time has expired.
    Ambassador KIRK. I would say I don't know that we are to 
that point we are tabling on access. But I would say, for us, 
the value of our Administration, the May 10th agreement 
represents a good, sound bipartisan agreement among Democrats 
and Republicans. And that is certainly something that we are 
going to reach for in every one of our agreements.
    Now, we have the opportunity, from what we have learned 
over the last 7 years, that there are some areas that weren't 
addressed, like indigenous innovation and state-owned 
enterprises. But that is something that we are using as 
something we are striving for, certainly in something as 
aspirational as we hope to achieve through the Trans-Pacific 
Partnership.
    Chairman CAMP. All right. Thank you.
    The Chairman of the Trade Subcommittee, Mr. Brady, is 
recognized.
    Mr. BRADY. Mr. Chairman, thank you. I would like to ask 
consent to insert my statement for the record.
    Chairman CAMP. Without objection.
    [The prepared statement of The Honorable Kevin Brady.]

    [GRAPHIC] [TIFF OMITTED] T5569.014
    
    [GRAPHIC] [TIFF OMITTED] T5569.015
    

                                 <F-dash>

    Mr. BRADY. I want to thank you, Mr. Chairman, for holding 
this hearing. The way you build bipartisan support for trade is 
by shining a light on this job-producing issue. And House 
Republicans, especially this committee, are going to conduct a 
very aggressive trade agenda, focused on three areas: finding 
new customers, and opening new markets in a level playing field 
for American workers and companies; secondly, resisting 
protectionism, both here and abroad, so that we can tear down 
barriers for American producers and companies; and thirdly, 
working both within the United States and with our trading 
partners to find innovative ways to move goods and services 
faster, better, and cheaper around this world.
    Your presence today, Ambassador, we think is key to those 
goals, and we look forward to you as a partner in all of those. 
We will be not just a willing partner but an insistent partner 
moving forward on trade.
    I appreciate, one, your openness and willingness to consult 
and listen and talk about all of these issues these past 2 
years. I congratulate you on successful improvement of the 
South Korea Free Trade Agreement. I very much applaud the 
joining of the Trans-Pacific Partnership. I think that is key 
to both job production, setting a state-of-the-art agreement, 
and getting us directly into China's back yard in that growing 
market.
    Three points I hope you will take with you today from this 
committee. One, the time is up for Colombia and Panama. They 
have not only done all that we have asked, they have gone far 
beyond it, signing the original agreement with the United 
States, a contract with us.
    Then they amended it at the direction of Democrat members 
and Republican members in a bipartisan May 10th agreement. Both 
agreed to improve labor standards, improve environmental 
standards, improve intellectual property rights standards, a 
whole host of demands that have been levied upon them, and they 
did it.
    Then both went beyond that, reaching in Panama to the tax 
information treaty addressing more labor issues. They have done 
everything we have asked of them. It is time for Panama.
    Colombia has done the same, spending a decade improving 
their rule of law, their labor rights, creating a peace where 
there was violence. They too have been waiting to jump, 
frankly, to meet our demands so that we can be actual trading 
partners. And I think it is embarrassing that we have not moved 
forward on them.
    And so I hope you will understand, this isn't about--these 
three trade agreements need to be submitted in the first six 
months. It is not about embarrassing any party or the White 
House. It is about making sure America doesn't further 
embarrass itself by turning its back on our trading partners 
and our workers in the meantime.
    The second point is that Russia, indeed--I think there are 
tremendous benefits to moving them into a rules-based global 
system, and I applaud your work in that area. But as a 
priority, I think it is important to know that there is 
virtually no chance that a Russia PNTR will be moved ahead of 
Panama and Colombia.
    I think it is critical that those be signed by the 
President before we take that up. Russia's progress can be 
measured in months. Panama and Colombia's efforts can be 
measured in years and years, and they deserve movement now.
    Final point. The Administration is looking at 
reorganization of trade and exporting efforts. I think that is 
very important. But USTR is unique. It is a very lean, 
entrepreneurial, nimble agency in an economy worldwide that 
requires all that.
    I am not interested in turning USTR from a cougar into a 
hippo on trade issues. Stay nimble. You will get great support 
from all of us.
    I would like your comments on those points, and as well on 
TPP as a job opportunity looking forward. I know you are 
working hard on that. Can you address any of those issues?
    Ambassador KIRK. Yes. And I am aware of the time 
constraints, Mr. Chairman. Just let me say, Congressman Brady, 
we very much look forward to working with you and your 
leadership on the subcommittee.
    Being from Houston and understanding the importance of that 
port, the one thing I would tell you, in TPP, also with our 
partners in North America, we really are looking at the 
logistics side of all of these, those non-tariff barriers, to 
make it easier and cheaper to move those goods around. So that 
is a big part of what we are doing on that.
    I hear your concerns and those of members of both sides on 
Panama and Colombia. I assure you we are ready to get started. 
We want to try to get those resolved.
    With respect to USTR, I am exceptionally privileged to 
lead, I think, an agency that provides the best bang for the 
buck to the American taxpayers. There are only 230 of us. We do 
an extraordinary service in negotiating agreements, enforcing 
America's rights. And that does make our work special and we 
want to keep that.
    But at the same time, having been in business, you and I 
know if you don't examine how you do what you do every three or 
4 or 5 years, you are losing ground. So we welcome this review 
under the President's commission. But we will also make sure 
that we don't lose what makes USTR special, and our ability to 
help go out and create jobs with what we do.
    Mr. BRADY. As a fellow Texan, thank you very much.
    Chairman CAMP. Thank you.
    Mr. Nunes is recognized.
    Mr. NUNES. Thank you, Mr. Chairman.
    Mr. Kirk, welcome to the committee. And here, virtually 
everyone on this side of the aisle has asked you about 
specifics as it relates to Colombia and Panama. And we still 
haven't heard any specifics. The ranking member, Mr. Levin, 
mentioned that these specifics do exist, although we still 
don't know what they are.
    I did hear you specifically say--you mentioned something 
when Mr. Johnson was questioning. You mentioned the communities 
of Pittsburgh, Detroit, and the Carolinas as not benefitting 
from trade. So I thought that was getting close to specifics.
    And I just wondered, how do those communities not benefit 
from the Colombian or Panama trade agreements?
    Ambassador KIRK. Well, first of all, if I said that, I 
misspoke myself. I think all Americans benefit from trade 
because, first of all, every family benefits when we make it 
easier and cheaper to put food on the table to feed your 
families, when we make it easier to provide the most advanced 
electronics to help your kids with their education.
    But there are communities--and I know you won't find it a 
surprise--that feel like that our trade policy has not operated 
to their benefit, that they have been harmed more than they 
have been helped. And it is a very broad brush. You get west of 
the Mississippi River and most of the members that I talk to, 
Democrat or Republican, are wanting me to move forward. You get 
into the Rust Belt and there is a little more cynicism about 
it.
    And it isn't just that. Our concern is an overwhelming 
majority of Americans now disagree with the proposition that 
trade has been good for us. We have to work----
    Mr. NUNES. Right. But when it comes specifically to Panama 
and Colombia, those countries have access into our market and 
we do not have access into their market. We would under these 
trade agreements if they were advanced.
    Ambassador KIRK. That is correct.
    Mr. NUNES. So if that is true, then why don't we--all we 
want are specifics. I think all Colombia and Panama are asking 
for is, specifically, what do you want us to do? They have gone 
beyond the labor chapter in the Andean Trade Preference Act. 
They have explicitly incorporated the International Labor 
Organization declaration into this agreement.
    So all we want are specifics as to what is the Obama 
Administration asking Colombia and Panama to do before the 
President will submit these trade agreements to be approved by 
the Congress?
    Ambassador KIRK. Let me make it plain. There are different 
elements involved in Panama and Colombia. They are not the 
same. With respect to Colombia, we are decidedly focusing on 
the issue of labor rights, the violence against workers. There 
has been some progress, and obviously some of you are reading 
from perhaps different hymn books. But I would say there is a 
fairly strong divergence of thought on this committee, and 
among a number of our stakeholders, how much Colombia has--the 
progress they have made in putting in place the necessary 
changes to their labor law to just provide those basic rights, 
to organize and such--we are not asking them to mirror our 
rules here in the United States--and to strengthen their 
judiciary, and the law enforcement, to bring those that have 
perpetrated this violence to justice.
    Those are the issues that we are trying to focus on. We 
want to take advantage again of the fact-finding mission of 
your ranking member. Again, Chairman Baucus is going to go 
down. We are sending a team. We are going to do everything we 
can to expedite that, Mr. Nunes, so that we can agree what----
    Mr. NUNES. But Mr. Ambassador, aren't these matters outside 
the confines of the trade agreement that was signed on May 10, 
2007?
    Ambassador KIRK. Yes. In many cases, they are. But I think 
they are issues that the American public believe are sacrosanct 
for us. I mean, again, the reason I gave you that recitation 
about my experience around the country, part of the American 
public's frustration, the biggest thing I have heard, is one, 
nobody else plays by the rules but us. And it wasn't just 
China. They felt like our trading partners weren't playing by 
the rules, and we wouldn't stand up and enforce our rights. We 
have addressed that.
    But the other thing is people's concern that we will sign 
an agreement with anything. If somebody has benefitted, we will 
sign it, and we don't care how they treat their workers or if 
it undercuts our workers or creates an unlevel playing field.
    And that is why we think it is important to address that, 
not just to find a way to go forward, but to begin to get 
Americans' confidence that trade works for us. We can create 
jobs here, and we aren't creating incentives to just move 
production to another country that may not respect the rights 
of those workers.
    Mr. NUNES. Well, I know that President Obama is going to go 
down to South America. He is going to visit Brazil. And I just 
think before we go on--and I don't have a problem with him 
going to Brazil; I think it is a positive step.
    But with Colombia still sitting out there, and he is going 
to that hemisphere, and for that trade agreement to be sitting 
out there, I just don't know what credibility the President 
will have or the Administration will have when we still have 
pending trade agreements from 2007 and we are operating outside 
of the confines of those trade agreements asking for things 
that, quite frankly, Mr. Ambassador, go outside of all the 
rules of engagement on making these trade agreements.
    And I will submit--I want to thank you, Ambassador, and I 
will submit, Mr. Chairman, for the record a question on the 
Mexico trucking issue.
    [The information follows The Honorable Devin Nunes:]

    [GRAPHIC] [TIFF OMITTED] T5569.016
    
    [GRAPHIC] [TIFF OMITTED] T5569.017
    
    [GRAPHIC] [TIFF OMITTED] T5569.018
    
    [GRAPHIC] [TIFF OMITTED] T5569.019
    
    [GRAPHIC] [TIFF OMITTED] T5569.020
    
    [GRAPHIC] [TIFF OMITTED] T5569.021
    
    [GRAPHIC] [TIFF OMITTED] T5569.022
    
    [GRAPHIC] [TIFF OMITTED] T5569.023
    
    [GRAPHIC] [TIFF OMITTED] T5569.024
    
    [GRAPHIC] [TIFF OMITTED] T5569.025
    
    [GRAPHIC] [TIFF OMITTED] T5569.026
    

                                 <F-dash>

    Chairman CAMP. All right. Thank you. Mr. McDermott is 
recognized.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Thank you, Mr. 
Stark, for giving me another 5 minutes.
    I would like to go on with the question of China. In 
Section 301, the green technologies issue, there was a letter 
from us, 178 Democrats and three Republicans, asking you to 
look into what was going on there in terms of their green 
technology and wind turbines.
    It is my understanding you have decided to find a case on 
the wind turbine issue, and we are very much pleased by all of 
that. You said, in doing that, that you lack the tools and the 
resources to uncover all the evidence within the statutory time 
frame.
    Tell us what you need to make it possible for you to do 
this in other areas and in a more timely fashion because we 
want to work hand-in-glove with you to make these things work 
for our workers, for our economy.
    Ambassador KIRK. Well, first of all--and we do appreciate 
your letter, and as you know, a 301 petition was filed last 
fall regarding China's industrial policies in a number of the 
energy areas. There were five different complaints alleged.
    The good news is we were able to successfully resolve the 
overwhelming majority of those by directly engaging and 
confronting China through our office at USTR, but also through 
JCCT. We did initiate consultations through the World Trade 
Organization on China's, we think, illegal subsidy of projects 
in the wind area. We are beginning consultations there.
    I want to be careful in this environment in which I know at 
the same time this committee is meeting, your budget committee 
is meeting. And you are in a horribly constrained environment. 
And we are asking American families to tighten their belt and 
make decisions, and I know it is too easy sometimes for all of 
us to just come and say, give us more resources.
    Now, having said that, we have a very strong team at USTR, 
but we are not all lawyers. That 223 employees is everybody, 
from top to bottom. And if we are going to have the robust 
enforcement that we have committed ourselves and engaged on, 
one of the things we are going to be looking, perhaps, through 
this organization is how we can strengthen our resources there 
because we have great legal talent that understands the law and 
can prosecute cases.
    We are woefully short, frankly, on the investigative side, 
so in many cases, we have to rely on the resources of other 
agencies. Something as simple as when we take on a case with 
China--in the tires case that Congressman Levin mentioned, we 
exhausted our translation budget in three months on one case 
with China because of the amount of money we had to spend on 
translators.
    But we are working with other agencies to see if we can't 
address that, and we will be happy to come back and visit with 
the committee on ways that will add the resources to make sure 
that we can stand up for our rights and America's workers.
    Mr. MCDERMOTT. Can I ask further? We have talked a little 
about the Korean Free Trade Agreement, and I would like to hear 
from you what you think the positives impacts were. We are 
arguing or fussing about the timeline and when will it be up 
here and all that. When it happens, give us an idea what you 
anticipate will be the positive impacts on the economy.
    I understand you estimate $10 billion as opposed to $1 
billion in Colombia, so it seems like a much bigger deal. But 
where is that going to happen in the economy?
    Ambassador KIRK. Well, first I want--and I do appreciate 
that. The $10 billion number is one that the ITC estimates. We 
don't do the economic estimates. They take that away from us. 
We think that is a fairly conservative number because the way 
we capture trade data right now is much more heavily weighted 
to manufactured and exported goods. It is not as precise as it 
relates to services.
    We talked a lot about what this will do to level the 
playing field in the automotive sector. But this is going to be 
very good for all American manufacturers because we are going 
to see a reduction in those tariffs immediately, the 
elimination of most of them in the first 5 years, and 80 
percent of our exports to Korea are in the manufactured goods 
sector.
    For those of you from farm states, this is a great win for 
us. Our beef exports are up 187 percent. We are now exporting 
almost $500 million worth of beef in Korea. The tariffs on 
those are going to come down immediately. It is also going to 
help grains and soybeans and others, so those sectors are going 
to benefit as well.
    Where we really see an opportunity for us to gain market 
access is in Korea's service market. It is a $560 billion 
market that we for the most part have had very little 
penetration. For the first time, we are going to have access to 
that.
    So we think the $10 billion number is compelling. The 
70,000 jobs, we actually believe that is a fairly conservative 
number. The other important thing, it gives us a foothold, 
again, in one of the most economically dynamic regions in 
Southeast Asia and strengthens what is already a very strong 
strategic partnership between the United States and South 
Korea.
    Chairman CAMP. Alright. Thank you.
    Mr. Tiberi is recognized.
    Mr. TIBERI. Thank you, Chairman. Thank you, Ambassador, for 
your leadership, and thank you for being here today. As you may 
remember, I am from Ohio, one of those Rust Belt states that 
you talked about. I know you have an Ohio connection as well.
    A quick question: The President has talked about doubling 
exports. Can we do that without passing any additional trade 
agreements?
    Ambassador KIRK. It would be difficult. And again, one of 
our passions for getting Korea and the others right, Mr. 
Tiberi, is to do that. Now----
    Mr. TIBERI. Thank you.
    Ambassador KIRK. I would tell you, to this point our 
exports are running at about 17 percent per annum clip, which 
is above the 15 percent needed. But certainly if we can get not 
only Korea but Panama and Colombia and Trans-Pacific 
Partnership done, it will make that goal much more----
    Mr. TIBERI. And increasing exports means increasing jobs, 
growing the economy. Correct?
    Ambassador KIRK. Yes, sir.
    Mr. TIBERI. You talked about cynicism, and you were 
absolutely right on. In my state, in my district, there is a 
ton of cynicism with respect to trade, and there is a 
disconnect between trade and exporting. And I appreciate your 
leadership. It has been absolutely fantastic.
    However, there is a farmer in this room from my district. 
His name is John Davis. And he is cynical as well with respect 
to Washington, D.C., and here is why.
    If you sat at his farm home in the fall of 2008 during the 
election, you would have seen a Candidate Obama talk about 
repealing NAFTA, how CAFTA was bad, how trade has cost jobs. If 
you would have sat in his farmhouse during the last election in 
2010, you would have seen more money than I have ever seen 
spent in Central Ohio, as well as in the Cleveland market, in 
the Cincinnati market, about how trade has cost hundreds of 
thousands of jobs in our state. Trade is the big bogeyman with 
respect to how Ohio's economy has suffered.
    And so if you are John Davis sitting in this room and you 
want to hear about cynicism, how do we stop that cynicism when 
every 2 years in an election we have people running for office 
making trade the bogeyman? Nobody, nobody, understands that you 
are going to--in my state, at least, other than people who work 
this every day who you talk to who maybe run companies or farm 
like John Davis, that we could, for instance, with Panama, by 
passing Panama, we can double agriculture exports from the 
United States, which means, again, more healthy farmers.
    But that is the minority. It is not the majority of Ohioans 
because all they see coming from leaders, like President Obama 
when he was campaigning in 2008, that trade costs jobs. That 
puts a tremendous amount of pressure on you and on me and 
everybody else up here when we try to tell them, no. Exporting 
and trade actually is going to grow our economy.
    And I think the President is disadvantaged when now he 
says, we are going to grow the economy by exporting--and, by 
the way, not talking about trade agreements--because he is one 
of many who has said trade has cost us hundreds of thousands of 
jobs.
    As you know, Canada is Ohio's largest trading partner and 
has created a ton of jobs in Ohio. And Canada is a great ally, 
not just a great trading partner. So how do you, as the point 
person, who has been dealt a very difficult hand and has 
handled it very professionally, help bridge that disconnect 
with the American people and the people in the Rust Belt that 
no, trade is good, trade can be very good, trade can actually 
grow our economy, exports mean trade, and it can actually 
create more jobs in America and create a better America for all 
of us and our kids?
    Ambassador KIRK. Well, you heard Mr. Brady talk about my 
work as a mayor, and I always tried to govern myself with one 
principle, that the truth is always an option. And 
unfortunately, I don't know that either one of your statements 
is wrong.
    And one thing we are doing is going to place like 
Cleveland, and going to Detroit, not just going to Dallas and 
Washington and others, and talking truthfully about what the 
promise of trade is. But it also means then that we have to 
have a less tin ear to those that say we need help.
    So one of the things you do--and I agree; I think it was 
Congressman McDermott--we do need to pass trade adjustment 
assistance. And we need to enforce our rights as we did in the 
tires case. And then we can get people to sit and listen. We 
can make the case and help them understand trade can help 
create jobs in Ohio.
    Mr. TIBERI. Well, Ambassador, I hope that your leadership--
--
    Ambassador KIRK. Obviously, Rob Portman made a good case of 
it because he----
    Mr. TIBERI. Yes. Well, I hope you use your leadership to 
help us get Colombia and Panama across the line as well because 
if we are indeed going to double our exports in the next 
several years, it is critical that we pass Colombia and pass 
Panama in the very near future.
    Ambassador KIRK. Yes.
    Mr. TIBERI. Thank you. I yield back.
    Chairman CAMP. Thank you.
    Mr. Davis is recognized.
    Mr. DAVIS. Thank you, Mr. Chairman.
    Ambassador Kirk, before asking my question, I would like to 
comment briefly on the Japan Post insurance issue, which I know 
you are aware of, which is a matter of serious concern to many 
of us on the Committee.
    Members of both parties are watching closely to see how the 
Japan Post privatization is handled. This issue is very 
important to U.S. insurance companies. I know you have worked 
hard to encourage Japan to reform Japan Post in a manner 
consistent with its WTO obligations, and I am concerned that 
the privatization efforts to date may not fully be in 
compliance with its commitments as a member of the WTO.
    Mr. Ambassador, we support your efforts and those of your 
predecessors and hope that you can achieve a successful 
resolution to this issue soon. I will be submitting a question 
for the record pertaining to this important issue.
    But for my question today, I would like to come back a 
little bit closer to home, to some of the agreements that have 
already been touched on. I would like to hear your thoughts on 
the geopolitical or geostrategic aspects of two of our pending 
free trade agreements, Panama and Colombia.
    They are key U.S. allies in Central and South America where 
Venezuela's anti-American president, Hugo Chavez, seeks to 
undermine U.S. interests and dominate the political landscape. 
Panama and Colombia are also key links in the north-south 
inter-American drug trade. By not implementing these 
agreements, we are allowing some in Latin America to question 
our commitment to the region.
    I am not alone in this belief. In May 2008, five former 
heads of the United States Southern Command wrote an open 
letter to Congress strongly urging support for the Colombia 
Free Trade Agreement. In light of the significant U.S. 
strategic interests in the region, I am concerned that the 
failure to move these agreements could precipitate a setback 
for U.S. influence in the region.
    Do you share these concerns? And if you do, would you mind 
elaborating on them for a moment?
    Ambassador KIRK. Well, let me say that we have examined our 
relationship in Latin America from every standpoint. Now, I am 
always--I try to be guided by the reality that the only reason 
the Office of U.S. Trade Representative exists is because 
Congress mandated that there be someone that looked at these 
purely from sort of a commercial standpoint, not a strategic 
one. That is why we are no longer housed in the State 
Department.
    Having said that, we fully understand the strategic 
importance of our relationship with Colombia. We applaud the 
work of both the Uribe administration and now the Santos 
administration in working with us on the drug interdiction 
areas. But that is why I think it is that much more important 
that we are willing to try to find bipartisan compromise to 
move forward on these agreements that stalled in May 2008.
    In Panama, everywhere I have gone from the Port of 
Baltimore to the Port of Orlando is getting ready and building 
infrastructure here to take advantage of the widening of the 
Panama Canal and the impact it can have on our port facilities 
here to handle greater transshipment of goods back and forth.
    So yes, we have examined all of those elements of the 
benefits of that. And I think it just creates a great 
imperative for us to come together on this other issue so we 
can allow these agreements to move forward.
    Mr. DAVIS. I guess I would like to go to a deeper level on 
it. The concern that I have--and I appreciate, as Mr. Tiberi 
noted, you have been dealt a difficult hand in dealing with 
this. You understand firsthand the issues of the benefits of 
trade.
    But when we talk about raising the issues of the ILO 
standards, we talk about various perspectives, out of concern 
for the Colombians, let alone the Panamanians, we have had 
their militaries come and plead with us, militaries across 
Central America and the Colombians, to bring these agreements 
about because of their internal security issues.
    And labor leaders in Colombia have come and pleaded to have 
us bring this forth. And those would have are strong organized 
labor advocates in the Democratic caucus have chosen to ignore 
the very voices that they say they are trying to help.
    And I guess my concern is, considering that Colombia is 
more in compliance, as I understand it, with these ILO 
guidelines than we are, don't you think that this rhetoric is a 
little bit--not yours--but a little bit dissonant? That we need 
to actually agree that this needs to move forward? It needs to 
move forward urgently both for economic and national security 
concerns?
    Ambassador KIRK. Well, we want to address all of the 
outstanding concerns. I am not going to comment on your 
interpretation of the Democratic members of this committee's 
understanding of those ILO commitments.
    And I would say--and I appreciate Mr. Tiberi's concerns. 
But I enjoy the work that I have, and I think the President has 
demonstrated great courage and leadership in articulating to 
the American public how we can win, but we can win by having 
trade agreements that fairly reflect our values, that open up 
markets, that are enforceable. And if we can work in a manner 
to get those done, then I think we will get to a place that we 
are not having this conversation next year.
    But the longer we want to sit and try to decide which party 
is to blame for not moving it forward, that is how you end up 
with these agreements being stalled for 4 years. And so I think 
it is time to look. Let's find common ground. Let's stop 
pointing fingers at one another and figure out a way to move 
these forward.
    Chairman CAMP. Thank you. Before I recognize Mr. Lewis for 
5 minutes, after Mr. Lewis we will go to 3 minutes of 
questioning. I know the Ambassador has to leave at 12:30, and I 
want to give everybody an opportunity to ask a question of you.
    So with that, I will recognize Mr. Lewis for 5 minutes.
    Mr. LEWIS. Thank you very much, Mr. Chairman. Mr. 
Ambassador, I want to thank you for being here today, and thank 
you for your service.
    We have heard a great deal about delay. Wait. Is it better 
to rush and get an agreement, or to wait and get it right? Now, 
Mr. Ambassador, you know I am very concerned about the issue of 
human rights, workers' rights, environmental issues. Some of 
these concerns and issues are long-seated problems in Colombia.
    You know, it is all right to talk the talk, but sometimes 
we need people to walk the walk. And I am not sure that the 
leaders, even the new leaders, are prepared to walk the walk. 
There are too many killings, too many violations of human 
rights, too many people disappearing.
    And as you said, and I agree with you, our trade 
agreements, our trade policies, should reflect our core values. 
Could you just elaborate? What are you going to do to see that 
the people in Colombia do the right thing? As someone said 
before, the time is always right to do right, and if we don't 
stand for something, we will fall for anything.
    Ambassador KIRK. Congressman, thank you for your question. 
Thank you for your service. You are a hero to so many of us who 
value and respect human rights, and we appreciate your advocacy 
and leadership on that.
    I will say what I have said to others. We think that there 
has to be a way for us to respect the sense of urgency that 
America take advantage of these opportunities to conclude these 
free trade agreements so we can say to that farmer, here is an 
opportunity for you to grow your business. We can say to our 
manufacturers.
    But we have to keep faith with the American people that 
want us to have a trade policy that reflects those values. And 
so, again, my simple answer is we believe we have to be 
responsive to both, and we can do so.
    I know you have spent years studying and devoted to the 
issue of human rights, labor rights in Colombia. I would tell 
you we are greatly encouraged with not only the rhetoric but 
the actions we have seen of the Santos administration, and that 
is part of what is driving the President to encourage us to 
intensify our negotiations.
    I know for some there is still an unacceptable level of 
violence. But we do believe, not only under the current 
Administration but under previous Administrations, Colombia has 
made great strides. We think we can build on that and work with 
the new Administration, work with those of you on the committee 
on both sides, and come up with the path forward that allows us 
to address their sense of urgency but your concerns about 
making sure we do so in a manner that takes care and respects 
the rights of those workers.
    Mr. LEWIS. Thank you very much, Mr. Ambassador. Mr. 
Chairman, I didn't take my 5 minutes. I think I took about 
three.
    Chairman CAMP. All right. Thank you.
    Mr. Reichert is recognized for 3 minutes.
    Mr. REICHERT. Thank you, Mr. Chairman.
    Welcome, Mr. Ambassador. I have enjoyed working with you, 
and you do enjoy your job, I have noticed that, although it is 
a tough one.
    The bottom line is that we want to sell American, and that 
is really the message. And I think you are delivering that 
message loud and clear. I am pleased to be a part of the Export 
Council initiative with Mr. Tiberi and yourself and Secretary 
Locke. And the goal, as I understand it, so far in the two 
meetings we have had is to create two million jobs by doubling 
exports.
    As I have said in some previous trade hearings, we haven't 
done that, doubled exports, since 1995, between the period of 
1995 through 2007, and during that period of time, we passed 
nine trade agreements.
    So one of the first questions I was going to ask is whether 
or not you thought that passing the Korean Free Trade 
Agreement, or not passing, would impact the doubling exports 
initiative. And your answer was, it would be difficult.
    So I also want to say that I really appreciate your 
recognizing right up front Washington State's issues as far as 
Canada attracting new customers into their ports and not into 
the Port of Seattle and Port of Tacoma when we first visited, 
and the importance of Korea to Washington State, as Korea is 
its fourth largest trading partner.
    So what will be the impact of further delays in passing the 
Korean agreement through Congress? What do you think they might 
have on meeting that the Export Initiative's goals? And do you 
believe, as I and many colleagues on both sides of the aisle 
do, that we will lose hundreds of thousands of American jobs if 
the E.U. implements its agreement with Korea before we pass 
ours? And connected with that, we know that China has already 
increased its exports--or imports to Colombia by over 200 
percent. We are losing market share.
    If that is true, we are going to lose thousands of jobs 
with these two things happening. Doesn't the same hold true 
with Colombia and Panama?
    Ambassador KIRK. Yes. First of all, Congressman, thank you 
for hosting us during the road show with the ASEAN ministers 
when we were in Washington. Thanks for working with us on the 
Export Council.
    And in the interest of time, the answer to all your 
questions is yes. I would add one thing, briefly. When we look 
at Korea, we tend to look at the 70,000 jobs. It is important 
to note 4 years ago we were the number one exporter in the 
Korean market. Today we are number four and sinking fast.
    So there are two ways to look at this. You can look at this 
and say, we pass it, we have the opportunity to reap the 
benefit of those 70,000 jobs. If we don't pass the Korea Free 
Trade Agreement, we put at risk 270,000 jobs that are now tied 
to all that we export to Korea.
    And I would say to those of you concerned about Panama and 
Colombia, I think it is a bit easy to look at Korea because it 
is $10 billion. From our Administration--I can certainly speak 
for me--every job is important. So whether Panama is a billion-
dollar market or Colombia is a $2 billion market, they 
represent opportunities for some small business. And that is 
why I think it is important we find a way to bridge our 
differences to move forward on those as well.
    Chairman CAMP. Alright. Thank you.
    Dr. Boustany is recognized.
    Mr. BOUSTANY. Thank you, Mr. Chairman. Ambassador Kirk, I 
am glad we finally have you in front of our committee, and so 
welcome.
    Look, I appreciate the work done on the South Korean Free 
Trade Agreement. I know it is going to help workers. It is 
going to help us grow jobs and business. But I can't pass up 
this opportunity to say that rice, which is very important to 
my state in Louisiana, was excluded.
    We know no trade agreement is perfect. But I do believe 
procrastination really hurts us from a standpoint of prestige, 
credibility, and leverage. So it is time to move forward on 
this agreement.
    By contrast, if we look at Colombia, our commodities, 
including rice, are included in this agreement, and we have 
seen amazing statistics whereby U.S. exports of commodities 
have plummeted just over the past year or two because we have 
not moved forward and other countries are moving forward with 
Colombia and free trade agreements.
    So I hope that we will get to the point where we stop 
hurting our farmers and rural communities and get moving on 
these because it is going to help us export our commodities 
going forward.
    I want to raise an issue. You and the President have talked 
extensively over the past 2 years about enforcement as a very 
important part of your trade policy. I have a mid-sized 
Louisiana company that cannot get payments on nearly $3.7 
million in business with China, products that they sold to 
China.
    I believe having a robust bilateral investment treaty with 
China is imperative. Other countries are doing this. If we are 
going to regain a competitive footing and help especially small 
and mid-sized firms, as the President has expressed interest in 
doing, we need a robust dispute settlement mechanism to handle 
this. And I think we are falling behind.
    So what is the delay on the part of the Administration in 
moving forward in getting a bilateral investment treaty 
specifically with China?
    Ambassador KIRK. Well, first of all, Congressman, thank you 
for your comments about agriculture. And parenthetically, I 
will tell you this year America's exports were up dramatically, 
almost $106 billion, according to USDA. They are forecasting 
that 2011 could be our highest year ever. We may reach as high 
as $114 billion, and that is extremely important to all of 
America's farmers and their workers and families. And we will 
be looking to try to address some of your concerns about rice 
within TPP and others.
    With respect to enforcement, we are trying to do two things 
with China. We are seeking a BIT with China. It would be 
helpful. We have had four negotiating rounds thus far. We are 
moving on parallel tracks because, one, we had already begun a 
process to review our BIT model because we believed it needed 
updating; it hadn't been revised in almost 10 years.
    We are hopefully at the very end stages of that. We have 
had extensive consultations with our committees of 
jurisdiction, the business community, and there are only just a 
couple of issues that remain to be resolved. But we are going 
to try to get that work concluded as soon as possible as well, 
and then we can go forward, not only with hopefully concluding 
our BIT with China, but with India as well.
    Mr. BOUSTANY. Thank you.
    Chairman CAMP. Thank you. The chair recognizes Mr. Neal.
    Mr. NEAL. To you, Mr. Chairman.
    Mr. Ambassador, I want to weigh in, as Mr. Davis did, on 
the issue of Japan Post. It is a very important issue to my 
constituency, and we have gone back and forth on that with USTR 
over a number of years. And I hope that you are going to 
continue to vigorously pursue that issue in terms of reform.
    Let me just, if I can, Mr. Ambassador, take us to an issue 
that I think is important here. Our friends on the other side 
suggested repeatedly that there have been these delays that we 
have constructed into these FTAs. In many ways, the easiest 
bilateral was Panama, and the problem was the complication that 
was offered by the assembly speaker, who murdered, I believe, 
an American soldier, who was alleged to have murdered an 
American soldier.
    The Bush Administration correctly pulled back on that 
bilateral because of that human rights violation. So we can't 
say that we are going to, as Mr. Lewis pointed out, dismiss 
certain bad behavior with human rights if it is a Republican 
president, and then insist that human rights ought not to be a 
consideration if it is a Democratic president. And I think that 
is the point that Mr. Lewis and I were trying to shop with you.
    But could you give us an update on where we are with the 
Panama bilateral, and what has happened with domestic politics 
there that might ensure an easier path to completion?
    Ambassador KIRK. I will try to. And thank you for your 
comment. You are correct in noting that one of the reasons 
Panama stalled was the complication of I think it was the head 
of their assembly that had been convicted in a court in 
Florida, in fact, of murdering a U.S. soldier. And the Bush 
Administration wisely said, we aren't going to do business with 
you.
    After that person was removed from office, we began to 
engage Panama on ways we could address the outstanding issues 
we had presented to them. Then we had the intervening 
complications of the OECD designated Panama as a tax haven.
    And we were engaged with the previous Administration, and 
we met with them in the Summit of the Americas. Mr. McDermott, 
in fact, was there, and others. And that Administration told 
us, frankly, if you are telling us that we are going to have to 
put in place a tax information exchange agreement, we are not 
sure that we want this deal.
    But the bottom line is we were able to progress beyond 
that. We have a new Administration in place. They do value this 
relationship as we do. We have made great progress on a number 
of the issues on labor. They have been working with Treasury to 
address the tax issues.
    I do understand they have initialed the tax information 
exchange agreement. There is some legislation that needs to be 
passed to address a corollary issue relating to bearer shares. 
But frankly, we are making very good progress with Panama, and 
we will be working with them on the coming months to see if we 
can't address those outstanding issues.
    Mr. NEAL. Well, thank you, Mr. Ambassador. The point that I 
think that also needs to be raised, that this committee's 
history, certainly in the 22 years that I have been a member, 
has been largely bipartisan. I think that as we try to find a 
path forward on these issues with these bilaterals that are 
hanging out there, we really want to ensure that the language 
that is offered here makes certain that going forward would be 
a bipartisan undertaking. Thank you.
    Mr. BRADY. [Presiding.] Thank you.
    The chair recognizes Mr. Heller.
    Mr. HELLER. Thank you, Mr. Chairman. And Ambassador, thank 
you for being here. Appreciate your spending some time and 
effort and energy in this committee with us.
    From a state that is struggling, Mr. Ambassador [sic], with 
almost 15 percent unemployment, we talk about these free trade 
agreements and their impact and what they would mean to a state 
like Nevada. Clearly they are incredibly important. In fact, 
trade, as you probably well know, has certainly helped Nevada.
    Since its inception in 1864 to the year 2000, we went 
obviously from zero trade to $1.5 billion. But then from year 
2000 to the year 2008, it went from a billion and a half to 
almost 6.2 billion, an increase of 266 percent in just 9 years.

    Now, the President has challenged all of us to double 
exports in the next 5 years. I would argue that Nevada has 
already done this. From 2004 to 2008, our exports jumped 110 
percent. And we did this by taking valuing of fast-developing 
markets, helping Nevada companies access these markets such as 
China.
    In 2000, China was Nevada's 24th largest export market. In 
2008, it was our third largest. Similar examples with India, 
from 28th in 2000 to 17th, or Brazil from 26th to 20th. So 
trade has always been very, very important for a state like 
Nevada, and clearly, as we move forward with this economy, 
trade is going to play a big part in picking this state up.
    Mr. Boustany talks about rice, and rice is important in 
Louisiana. And mining is very important in Nevada. And I would 
like to share a real story. We have some miners here in the 
building, and some of their concerns are with pending free 
trade agreements.
    For example, in Panama, their concern is that they have 
taken a lead based on encouragement from the government that 
there will soon be a free trade agreement; but in their efforts 
to mine and do the research and development which they are 
doing, what they are finding is that the corruption in the 
government in Panama right now is making it very, very 
difficult for them to make a profit even though the ore, the 
mineral they are able to find, has been very good.
    And a lot of these international or national mining 
companies, of course, come out of the State of Nevada. And 
sharing their concern with me, I guess I will put it in your 
lap. How would you address this?
    I mean, they pay the licensing. They pay the fees. But then 
they pay the fines. They have a corrupt government that they 
have to make under-the-table payments, and it is making it 
very, very difficult for them, obviously, and their 
shareholders to produce or to make a profit.
    How would you respond to that, and in light of perhaps a 
Panama Free Trade Agreement coming through, be able to give 
them some encouragement?
    Ambassador KIRK. One, I would want to follow up and get 
more specifics on that. Secondly, I wasn't much of a lawyer, 
but the lawyer I was would tell you that what you framed to me 
was a hypothetical because American companies don't pay bribes 
because that would be in violation of the Foreign Corrupt 
Practices Act. So first of all, we are not going to put 
anybody----
    Mr. HELLER. It is tough out there. It is tough out there.
    Ambassador KIRK.--at risk of that. But I don't mean to make 
light of it.
    Mr. HELLER. I understand. I understand.
    Ambassador KIRK. If we could maybe have a conversation 
afterwards, I could learn a little more about that.
    But I would say one of the values of all of these free 
trade agreements--and, for example, why we want Russia in the 
WTO, and China--is then we do have them in a legal rules-based 
environment that we can address some of these issues.
    But I will be happy to follow up with you. And I would 
say----
    Mr. HELLER. I would appreciate that.
    Ambassador KIRK.--but we don't talk enough about travel as 
a part of our exports. And as Congressman Reichert can tell 
you, on our Export Promotion Council, that is one element that 
we are looking at. And since I was in your great state for the 
CEC Council, it is refreshing to see that the tourism and the 
dollars that those foreign businesses bring----
    Mr. HELLER. It is helpful.
    Ambassador KIRK.--are helping to bring Nevada back.
    Mr. BRADY. Mr. Chairman--thank you, Mr. Chairman. Thank you 
very much. And thanks for being here today.
    Mr. HERGER. [Presiding.] Thank you. And I do appreciate 
President Martinelli's effort both to resolve outstanding 
issues so we can move forward on Panama as well as create a 
business climate that is welcoming for foreign investment as 
well.
    The chair recognizes Mr. Roskam.
    Mr. ROSKAM. Thank you, Mr. Chairman. Ambassador, thanks for 
your time today.
    Ambassador, earlier you said that the Administration was 
going to move forward on the Korean Free Trade Agreement in a 
matter of weeks. That sounds like a processed answer, and a lot 
of thought was given to that.
    Is that a matter of weeks that can mean months, or is that 
a matter of weeks, the common understanding of weeks, that is, 
less than a month?
    Ambassador KIRK. Well, I went to public schools in Texas. 
But for us, weeks means weeks.
    Mr. ROSKAM. Good. So less than 30 days we can expect that?
    Ambassador KIRK. We are--listen. We are trying to finalize 
the text. As you know, we are operating under trade promotion 
authority, and so there is a fairly structured process by which 
we submit this to this committee and Finance, and you began 
your, I think, mock hearings on those.
    We very much are concerned, as you are, that we want to get 
this agreement before the Congress and passed so that at least 
we aren't putting our exporters in a competitive disadvantage.
    Mr. ROSKAM. Great. But just so that I am clear, the common 
understanding of weeks is less than a month. And that is what 
really we are looking at. Is that right?
    Ambassador KIRK. Yes, sir.
    Mr. ROSKAM. Great. How about Colombia?
    Ambassador KIRK. You may have missed my introductory 
remarks. But the President, just as he did last year in 
directing us to see if we couldn't conclude our negotiations on 
Korea, has directed us to intensify our engagement with 
Colombia so that we can resolve those outstanding issues this 
year.
    And we have had, I think, a fairly exhaustive discussion of 
the sense of urgency and the sense of concern from members on 
both sides. And we are going to find some way to find some 
common ground that will allow us to address those and move 
forward.
    We will send a team to Colombia next week. The vice 
president was here. Two weeks ago he met with myself, members 
of the Administration, the Secretary of State. We are 
encouraged with their new leadership. We hear your message. We 
are going to move forward as quickly but thoughtfully as we 
can.
    Mr. ROSKAM. Turning just briefly to China, I want to 
highlight an experience in a nutshell. And I will follow up 
with you with a letter, Ambassador. A corporation in my 
district, Fellows Manufacturing, is involved in essentially a 
nightmare scenario with a joint venture that has gone south. 
And they have not been able to get the legal remedies that they 
deserve.
    I think it is a very, very serious example of manipulations 
on the part of some in China that are taking advantage of an 
incredibly significant manufacturer in the Chicago area. 
Because our time is truncated, I won't belabor the point. But I 
did want to highlight it because I think it is an area where 
the Administration and Congress can work forthrightly to 
advocate and defend American manufacturers who in some cases, 
and in this case, a quick reading of this story, it sounds like 
the wild west.
    So I know you don't have the benefit of the details, but I 
will follow up and get these to you for your consideration.
    I yield back.
    Mr. BRADY. Thank you. I inadvertently recognized a member 
who was not here at the gavel at the outset, so in fairness, 
would like to recognize Mr. Rangel.
    Mr. RANGEL. Thank you, Mr. Chairman, and it is just a great 
pleasure to see you here, and even a greater pleasure to hear 
about the progress that is being made with our dear friends in 
Korea. I first went there in 1950 under different 
circumstances, but I cannot believe the tremendous advancement 
that they have made economically and in terms of democratic 
principles.
    Quite frankly, it is much more difficult to alter 
agreements that already have been made rather than be involved 
in the first instance of discussion. You have done a fantastic 
job and I am so pleased to hear that.
    You know better than most people that we have reached a 
point, due in part to high unemployment, that when you say 
trade, people believe you are selling out the ``Made in the 
USA,'' and you are transferring jobs across. And of course, 
whether Republican or Democrat, business or labor, I don't 
think we do a good job in identifying exactly where is the job 
creation.
    It just seems to me, as a former mayor, that if you are 
selling anything, the bottom line is, what is in it for me, 
Jack? And that is how you sell things. That is what politicians 
do.
    So if you had asked me as to what this does for America, I 
would relate so closely to Detroit as well as Nevada and the 
pain that we feel as Americans. When you see this type of pain, 
you know if it is good for Detroit, it is good for us. And you 
have really overcome a big obstacle.
    But what about the rest of the jobs, whether in services or 
agriculture? Why don't members, Republican and Democrats, come 
and say, Rangel, we need that bill; it is going to help us to 
have jobs? I don't hear that type of thing. I hear it from the 
Chamber of Commerce. I hear it from the Republicans. I hear it 
from business people, and certainly those that have a concern 
about making America great because we have to trade in order to 
survive.
    But how do you reach out to see what jobs are going to be 
created? Of course, if they are for New York, that would be 
great. But if they are not, they should be good for the 
country. I don't get that response on trade.
    Ambassador KIRK. Well, Mr.--forgive me, Mr. Chairman--
Congressman Rangel, thank you for your kind words. Thank you 
for your service to our country. And one, we would love nothing 
more than to work with you, with the members, to provide you 
that data.
    Again, we are reasonably small. But I can tell you, in the 
case, we can get data for every member, every district, at 
least to the degree we have collected what every one of these 
free trade agreements means in your communities.
    And I can tell you, in the case of Korea, there is not a 
member here that does not have at least tens of thousands of 
workers that won't be benefitted from our passing this 
agreement. Some may be in manufacturing. Some may be in the 
services and insurance. Some may be in agriculture. Some may be 
those small businesses. We tend to overlook the fact that many 
of the beneficiaries of trade are those small businesses who 
are suppliers to either Caterpillar or Chrysler or Ford, and 
they may not even realize that they are benefitting from trade.
    But we would welcome the opportunity to sit down with any 
member and at least give you the best data that we have. And 
then hopefully you can help educate us on what some of those 
opportunities are.
    Mr. RANGEL. Thank you, Mr. Ambassador. ``Kamsa Hamnida'', 
as they say.
    Mr. BRADY. Thank you. The chair recognizes Mr. Gerlach.
    Mr. GERLACH. Thank you, Mr. Chairman. Mr. Ambassador, thank 
you for testifying today.
    Whenever you talk about trade in Pennsylvania, the first 
word that comes up is China. Everybody is so concerned about 
the current trade policy, or lack of trade policy, that we have 
relative to that growing economy. And we have heard from so 
many different businesses and entrepreneurs in Pennsylvania 
that the currency manipulation problem is one that is greatly 
impacting adversely their ability to trade their products in 
China and have a fair price for a Chinese product here in the 
United States.
    In the testimony you shared with the committee before you 
started at 10:00 a.m., you have a paragraph here that says, 
``Engagement with China, including through the Joint Commission 
on Commerce and Trade, has been very productive, showing 
results in addressing indigenous innovation policies, improving 
intellectual property rights, including securing greater use of 
legal software.''
    That is wonderful progress and we applaud you for that. But 
there was no mention of the currency manipulation problem that 
continues to be such a problem.
    So my question to you is, first of all, what was the 
specific discussion, if you know, between President Hu and 
President Obama when they met recently on this issue? And what 
can you tell me the specific plan is of the Administration to 
try to get this currency manipulation problem resolved once and 
for all?
    Ambassador KIRK. Well, I appreciate your concerns about 
China. It is a complex but long-term and extraordinary 
opportunity for America's businesses and exports, just as they 
are trying to move 600 million people from an agrarian society 
to one in which they can have a need for and afford the types 
of products, services, goods produced in this country. So first 
of all, we think it is worth the time and effort.
    Secondly, my remarks were deliberately drafted to reflect 
those areas that USTR can most impact. And I hope I don't sound 
evasive, but as you know, our Secretary of the Treasury has the 
responsibility to address the currency issue, and I know he has 
spoken on that. And so I don't want to say anything that 
attracts or detracts from the stance that Secretary Geithner 
has enumerated on that.
    I will tell you that in every occasion that President Obama 
has engaged President Hu--and it is instructive to note we have 
progressed to a point where it was a big deal 10, 15 years ago 
that an American president entertained his Chinese counterpart 
once in a term. President Obama and President Hu have now had 
eight face-to-face meetings. When you include G20, G8, every 
four, the President does address the issue of China allowing 
its currency to flow to national norm. So we do that.
    But our work at USTR is to make sure we are responsive to 
those other concerns. You have heard other members talk about 
their concerns about intellectual property rights, piracy, 
indigenous innovation, and that is where we think we can add 
the most value, is that while the currency issue is important, 
what we hear from small businesses is their fear of putting a 
product in China and, just frankly, having stolen it. We hear 
businesses who are there that are concerned about their 
indigenous innovation policies.
    So we think the time and energy we spend on those areas can 
be just as important to your businesses as addressing the 
currency issue.
    Mr. GERLACH. The House last session, late in the session, 
did pass a bill----
    Chairman CAMP. [Presiding.] I am afraid the gentleman's 
time has expired.
    Mr. GERLACH. Oh, okay. Thank you, Mr. Chairman.
    Chairman CAMP. Mr. Buchanan is recognized for 3 minutes.
    Mr. BUCHANAN. Thank you, Mr. Chairman.
    Ambassador, I appreciate you being here today. And I share, 
I think, the intensity we just talked for a couple of minutes 
your views just as much on doing what is best for Americans and 
America and American companies. We need to continue to fight 
for them in terms of all the trade agreements.
    I do want to say I applaud the effort that you guys have 
moved forward on Korea. I think that is very important. But let 
me mention to you as it relates to my district, and really the 
State of Florida. We have 14 ports in Florida, but I have a 
port in our area, Port Manatee. It is the closest port to the 
Panama Canal.
    It is something that we have been working on for a lot of 
years. They are doubling the capacity in terms of Panama. I 
have been down there, have had the Ambassador in our area. We 
have met with the President. And we have had delegations from 
the port to go down there because, again, they are doubling the 
capacity. I think they are spending $5 billion in terms of 
improvements in that area.
    I am very concerned that these things go on for 4 years. 
You mentioned you have been in business. I have been in 
business. I have been in complicated deals before, maybe not as 
complicated as this, but I am very concerned when these things 
run on. There is the saying that you can't manage it if you 
can't measure it.
    And I think that is what we are talking about, is having 
some reasonable time frames, because it is affecting us in 
terms of our jobs. We have got 20,000 good-paying jobs, 
directly and indirectly, with our port. We think we can double 
that. But here we are. We have been waiting 6 months, 9 months, 
some as long as 2 or 3 years.
    It seems to me at some point you can't get the perfect 
deal. You get as much as you can get done, my experience 80, 90 
percent, and then we need to move on. But I think it is 
imperative that Panama and Colombia, we get those off the table 
because to me it is a lot about politics. And if we don't do 
something now, we are going to run into more politics coming up 
here shortly. So we need to get that done. So I just want to 
get your comment.
    And the second thing, I do share a lot of concern about 
China and a lot of issues with China. But what happens, because 
we can't move forward here, we don't get a chance to get to the 
China discussion. So it is imperative we get this done in the 
next six months, I think, for the sake of the country, Florida, 
as well as my district.
    Chairman CAMP. Well, thank you. The other point is, Panama 
was started in 2004, and here we are in 2011. After 7 years the 
law declares you legally dead, and we don't want Panama to die. 
We want it to keep going.
    So with that, I would recognize Mr. Doggett for 3 minutes.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    It is always good to see a fellow from Austin do so good 
and do so much important work on the world stage. I appreciate 
your service, Ambassador.
    I voted, as a member of this committee, for most of the 
trade agreements that have come here, and hope to vote for 
more. If we were looking at it solely in terms of trade impact, 
the three agreements we have been discussing would be very easy 
to support.
    These Bush/Cheney trade proposals are very much at the 
margins. Even the Korea agreement, much larger than the other 
two, was described by the International Trade Commission as 
having a probable negligible impact on output and employment in 
the United States, as you know, in its study.
    But there is much more at stake, and particularly in 
Panama, than just trade. Panama has made a name for itself not 
only as a place of a canal, but as one of the leading tax 
havens in the entire world. It has been an equal opportunity 
offender. It didn't discriminate against us. It wouldn't 
cooperate on taxes with anyone.
    As recently as 4 months ago, the OECD outlined a long list 
of deficiencies in Panama's legal framework. They have refused, 
about as much as any country in the world, to cooperate 
anywhere on taxes.
    You have indicated you are getting close to being ready to 
submit this agreement. Can you assure us that before you do so, 
that Panama will have provided full compliance in making all 
the necessary changes to correct these deficiencies and to 
fully implement them? It appears that this trade agreement is 
about the only thing we have to ensure they do what they should 
have done many years ago.
    Ambassador KIRK. Congressman, I can tell you that we have 
worked with the Panamanians. We made it very clear last year 
that it was, frankly, their call to make, that if they did not 
choose to engage us on the issue of addressing the tax 
questions, then we would accept that.
    I would say that we have engaged them. Treasury has taken 
the lead, so I want to be careful because you asked a fairly 
precise question.
    Mr. DOGGETT. Okay.
    Ambassador KIRK. I can tell you we have had very good 
engagement with the Panamanians under the new Administration--
--
    Mr. DOGGETT. I appreciate that. Given the short time, I 
will just say, just as there have been 7 years in which it 
could be declared legally dead, there has been 7 years for 
Panama to fully implement and make the changes necessary to 
stop being a tax haven. It hasn't done it, and that remains a 
big concern to me in looking at that agreement.
    You and President Obama have spoken eloquently of the need 
to make significant changes in our trade policy, and to 
recognize that it is not just about moving widgets across 
borders, it is a broader issue that encompasses the environment 
and working standards.
    I have some concerns. Mr. Lewis indicated that the 
performance has not been quite up to the standards of the 
speeches, specifically on the question of opening up the 
process and involving more public representatives in the way 
our trade policy is developed.
    You had Lisa Garcia come and testify at our committee 
almost 2 years ago. She could not identify any example where 
having public representation on these trade advisory committees 
had caused harm, as some have alleged in trying to block 
increased public representation.
    I wrote you shortly after that, and I gather you and your 
staff, now having had almost 2 years, are unable to identify 
any substantive experience where having the public involved in 
this process through representations of environmental 
representatives or health representatives has caused a problem. 
Have you found any such problem in the history of USTR?
    Ambassador KIRK. Well, I don't----
    Chairman CAMP. The time is expired. So if you could just 
briefly answer.
    Ambassador KIRK. I think we have submitted it. And if we 
didn't get it to you this morning, we did get your letter and 
we have submitted an answer. President Obama is committed, not 
just in trade policy, to opening up the advisory process in our 
government to all Americans.
    And we have done our best to strike that balance between 
the statutory mandates we get from Congress in the composition 
of our technical advisory committees, but in opening it up to 
other voices as well. And I think----
    Mr. DOGGETT. And you have found no problem, have you?
    Chairman CAMP. Thank you. Thank you. You can submit an 
answer in writing, Mr. Ambassador.
    Mr. DOGGETT. Just a yes or no would be helpful.
    Ambassador KIRK. Let me get back thank you.
    Chairman CAMP. Mr. Smith is recognized.
    Mr. SMITH. Thank you, Mr. Chairman. Thank you, Ambassador, 
for your service.
    As we have heard, obviously the U.S. agriculture sector is 
a vibrant economic engine that contributes significantly to our 
export efforts. We also know that there are some non-tariff 
trade barriers that do exist around the world, and that these 
actually keep United States' farmers from meeting the demands, 
the global demands, that we also know exist.
    And so as we pursue science-based regulatory efforts, we 
know that perhaps some of our trading partners are not. And we 
know that we have got very innovative producers here. Can you 
tell me what USTR is doing to make sure that our trading 
partners are truly focusing on science-based standards as a 
regulatory effort rather than more political results or even 
efforts?
    Ambassador KIRK. Well, we have a good story here, Mr. 
Smith. And in the interest of time, if I could, we do two 
things. One, for the reasons you articulated, one report that 
you mandate we deliver to you is what is called a 301 report in 
that we have to tell you how our other partners are complying, 
say, for example, in intellectual property.
    I made the decision when we came in the office that that 
was good enough. We now issue a similar report on, 
specifically, the sanitary and phytosanitary standards. We will 
be submitting that to you soon. That is one thing.
    But secondly, we have pursued in every forum compliance 
with sound scientific standards, and it has helped us. We, for 
example, settled a longstanding case with the European Union on 
their excluding our beef. We are now shipping 20,000 metric 
tons, almost $250 million, into that market.
    After we had the H1N1 scare, almost 28 economies cut off 
U.S. pork exports. We are back in, I think, all of those 
economies but one. We have dealt with everything from poultry 
in Russia to beef in China. But it is one of our highest 
priorities, and we would welcome your thoughts on how we can 
perhaps even do better.
    Mr. SMITH. All right. Thank you, Ambassador. And Mr. 
Chairman, I do have some other questions that I will submit for 
the record. Thank you.
    Chairman CAMP. All right. Thank you, Your Honor.
    Mr. Schock is recognized.
    Mr. SCHOCK. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for being here, and I look 
forward to working with you on these issues, which are 
important to our country and even more so to my district, the 
issues of trade.
    I guess, to be very frank with you, it is a little 
frustrating to hear the talk about these groups that have labor 
concerns--not that people don't have legitimate labor concerns, 
but who the groups are and who the Administration truly is 
working with and looking to for signoff on the issues of labor 
concerns. Let me give you an example.
    I have a very large UAW presence in my district. They 
manufacture heavy equipment that would benefit, that right now 
is put at a competitive disadvantage when doing business in 
Latin America. I can assure you those labor workers would 
support having a level playing field in our country to do 
business in these countries.
    When I traveled to Panama and Colombia a year and a half 
ago with then-Majority Leader Hoyer, we met with labor unions 
in Colombia who, interestingly, the trade groups, who I thought 
would be opposed, were actually in support of these agreements. 
But it was actually the public sector unions--the teachers, the 
garbage collectors--who were opposed to trade, not because they 
were concerned about human rights, but simply for political 
reasons.
    There had been significant progress made then, and 
continues to be. President Uribe went through, line item by 
line item, the work that he had done. The ILO just last year 
removed Colombia from its labor watch list. Since then, 14 
Colombian labor union leaders representing 79,000 of Colombia's 
workers have signed off in support of the agreement.
    The president of the United Workers Confederation in 
Colombia stated that, ``Never in the history of Colombia have 
we achieved that much progress,'' and views it as satisfactory 
and supports the agreement.
    So I guess I am looking for some specificity on who are 
we--because we are not going to get complete agreement. And 
many of the same labor issues that we had with Peru were 
satisfied with the May 10 agreement, which is what is in the 
current Panama and Colombia agreements. And Peru was passed 
with strong bipartisan support. There were those who opposed 
it, but it got strong bipartisan support.
    So if we have those same labor and environmental concerns, 
the same language, in Panama and Colombia, and the 
Administration is saying, wait, who are we looking to 
specifically to sign off?
    Ambassador KIRK. Well, first of all, I don't know that we 
are looking for any one group to sign off. And we have made it 
plain: no one has a veto over the Obama Administration's trade 
policy save the President. But we listen to all voices, just as 
we did on Korea.
    I have met with members of this body that have expressed 
concern. We have labor advisory committees. We have statutorily 
mandated technical and public advisory committees. I do as you 
have recommended. When I have come to Illinois or have gone to 
Washington, I sit down and meet with the workers themselves. I 
don't just listen to their representatives in Washington.
    We have published a notice in the Federal Register. We have 
gotten all those comments. We take all of that information, and 
then we try to come up with the best decision. Just as we did 
in the case of Korea is what we want to do here.
    Chairman CAMP. All right. Thank you.
    Mr. Crowley is recognized.
    Mr. CROWLEY. Thank you, Mr. Chairman. And Mr. Ambassador, 
welcome once again. It is good to see you again, and thank you 
for your hard work. I know sometimes it feels as though it is a 
thankless job, but you have done some remarkable work as it 
pertains to the Korean Free Trade Agreement, making the 
agreement a better agreement for the U.S.
    I want to thank Mr. Levin as well as Mr. Camp for their 
work and engagement with you in your office in making that 
agreement a better agreement. I know there is work to be done 
on Colombia and Panama, particularly on the ground in Colombia 
as it pertains to human rights and to the rule of law there. 
And I know that your engagement over these next months will 
have an impact in making that agreement a better agreement as 
well. I look forward to that.
    But one country that I want to look at, if I could, just 
divert for a moment, is India. I have once again assumed the 
chairmanship of the India caucus here in the House, as co-
chairman along with Ed Royce. And I know that Secretary of 
Commerce Gary Locke is in India right now working on a trade 
mission, seeking opportunities for U.S. companies to help 
expand our opportunities for exports to India.
    But one issue which I have been interested in for a very 
long time is the investment caps in the Indian insurance 
industry. Right now, American companies can only own up to 26 
percent of the value of an insurance company within India, even 
though we have been, I have been working to increase that 
number to 49 percent.
    What is the status as you know on that issue, and what more 
can be done to ensure that our service companies can export 
their services on a more level playing field?
    Ambassador KIRK. Well, I appreciate your leadership on the 
Indian subcommittee. And this, we spend so much time on China, 
sometimes we neglect the opportunities, the growth markets and 
needs in India and Africa as well.
    As you know, President Obama led an export mission to India 
as part of his Southeast Asia trip last year. And I will be 
honest: We have been extraordinarily frustrated at the slow 
pace of opening that market. We have a number of engagements 
with India.
    I lead a trade policy forum in which we have raised these 
issues of them opening their economy for more. This would be a 
case that when we can finish our BIT review, we are also 
looking to perhaps get India to sign a bilateral investment 
treaty which would remove those caps, not only in insurance, 
but liberalize their markets across the board.
    There is great opportunity for Americans in the retail, in 
the agriculture, in the manufacturing sector. Some of this we 
are trying to address if we can get, frankly, the right balance 
in a Doha Round. The rest of it we are going to continue to see 
if we can't find the right buttons to push in our bilateral 
engagement.
    Mr. CROWLEY. As you see, my time has run out, Mr. 
Ambassador, I thank you and the Chairman for the opportunity. I 
do have other additional questions that I will submit to the 
Ambassador, and I look forward to your response, especially as 
it pertains to the TPP. Thank you.
    Chairman CAMP. Thank you.
    Mr. Lee is recognized.
    Mr. LEE. Thank you, Mr. Chairman.
    And Mr. Ambassador, I won't dwell on this subject too long, 
but I think it is worth repeating, and that is the issue of 
jobs. We are sitting on over 9 percent unemployment again, and 
why I think Congress gets such a bad name is we don't listen to 
the American people.
    I think you have--I have heard you pretty loud and clear, 
and also even Ranking Member Levin when he was in Colombia, 
that in Colombia we have made improvements. And your belief is 
that all three of these trade agreements will create jobs here 
in the United States.
    Yet we have sat for 7 years. And I know you are trying to 
move things along, but it worries me when we keep saying weeks, 
and I went back and I--you look at some of these timelines. The 
talk and the rhetoric that we have here, I think the American 
people are tired of it. And this should be a nonpartisan issue. 
This is about putting people back to work in this country.
    To shift, then, to another point because I think all three 
of these will put people back to work, and that is really what 
our job is, is to help people in this country. But another area 
of mine, and I came from manufacturing, and that is the issue 
of IP and the issues surrounding China.
    And we all want to increase our trade there. But China has 
been using indigenous innovation policy for quite a while, and 
it is their opportunity to circumvent international trade rules 
and basically compel American companies to hand over their IPR.
    And I know from your point just recently--we just had the 
meeting of the JCCT. I was hoping that you could go into some 
specific metrics that the Administration has put forward to 
help remedy the situation.
    Ambassador KIRK. Well, one of--and again, I want to make it 
plain. We are going to have to be constantly vigilant with 
China, Congressman. But one of our victories this time was 
getting them to agree to de-link the IPR issue from indigenous 
innovative.
    This has been one of the highest concerns to our business 
community in terms of China's efforts to try to have us 
transfer technology in order to bid on that. But we were able 
to successfully, between JCCT and then the followup engagement 
with President Hu and President Obama, at least get them to 
commit that they would de-link those two.
    There was also a question--China had a very creative 
application of having to comply with their standards and 
experience in order to be able to bid on some of their 
projects, even though we had American companies that had 
experience all over the world. We were able to get them to 
agree to use that experience as well.
    But I don't want to, in any means, downplay the challenge 
ahead of us. But this was one area where we did have some 
success, and we will continue to monitor that.
    Mr. LEE. I thank you. And I would again urge you to try to 
push these trade agreements forward. It is very difficult to 
look our constituents in the eye when there are no jobs for 
them to be had, and we have a solution to help. Thank you.
    Ambassador KIRK. Thank you.
    Chairman CAMP. Thank you.
    Ms. Jenkins is recognized.
    Ms. JENKINS. Thank you, Mr. Chair, and thank you for 
holding this important hearing. Thank you, Ambassador Kirk, for 
being here today and for your service.
    As you briefly touched on in your opening remarks, Russia 
has been seeking to become a member of the World Trade 
Organization for more than 16 years. Russia's joining the WTO 
on the right terms would be good for both our countries, 
strengthening the rule of law in Russia, and promoting closer 
economic ties.
    Last fall our two governments made very encouraging 
progress in resolving a number of key outstanding bilateral 
trade issues, and work continues on the multilateral terms of 
Russia's accession to the WTO.
    But with that said, Russia has much work to do on various 
longstanding issues of concern, such as IPR enforcement, 
barriers to U.S. agriculture exports, and other non-tariff 
barriers. Such trade concerns, combined with broader foreign 
policy and human rights concerns in Congress, is going to make 
it difficult for Congress to consider PNTR legislation.
    Is Russia's WTO accession a top Administration priority? 
And if so, what exactly is the Administration, and more 
specifically, what is the USTR doing or planning to do to 
address such congressional concerns and lay the groundwork to 
consider such major trade legislation?
    Ambassador KIRK. Thank you, Congresswoman, for your 
concerns. But you partly answered our question in the first 
part of your recitation of what we have done. The President 
expressly directed our office to work with our colleagues in 
Russia to address a number of the outstanding bilateral 
concerns we had.
    We did work on that successfully over the summer. We met 
the President's September deadline for that. That, for the most 
part, we think addressed the overwhelming majority of the 
bilateral issues. Russia's accession then moves to the broader 
committee structure within Geneva, in which we will continue to 
engage them on those other concerns.
    Now, we are frustrated. You mentioned agriculture and their 
adherence to sound science. And as you know--or maybe you don't 
know--we have had an extraordinary challenge getting our 
poultry and beef back into their market. But that also makes 
the case why we want them in the WTO, so that we have them in a 
form that we can address many of those concerns.
    On the human rights component of that, as you know, the 
State Department takes the lead in addressing those. But we 
understand and appreciate all your concerns, and want to work 
you and other Members of Congress to address those so that we 
can move forward at the appropriate time.
    Ms. JENKINS. Thank you, Mr. Ambassador. And I will yield 
back.
    Chairman CAMP. Thank you.
    Mr. Kind is recognized for 3 minutes.
    Mr. KIND. Great. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Ambassador, thank you for being here and for the work 
you are doing in the Administration to try to advance a 
proactive, forward-looking trade agenda which is crucial, 
obviously, for economic growth and job creation back home. We 
will look forward to working with you on the pending 
bilaterals.
    I am glad to see that the President has tasked you now to 
see if we can get Panama and Colombia put to bed at some point 
in the future. The bilaterals are important in their own right 
as stand-alone measures. But the real game changer, as you 
know, is really the multilateral round of discussions; the Doha 
Round.
    I apologize for having to step out. We had a meeting with 
the Treasury Secretary a little bit earlier. But I just want to 
impress upon you how important it is for us not to give up the 
ghost yet when it comes to Geneva and the multilateral round. 
That is what can have the most significant impact, not only for 
global prosperity and growth, but for bringing the emerging and 
developing countries into the global trading regime as well.
    I know we have had some hurdles there, not least of which 
are some of the agricultural provisions. And another item that 
hopefully is going to be teed up in this next session of 
Congress, is the next Farm Bill reauthorization and some of the 
reforms that I and others feel, that we need to move forward in 
a bipartisan fashion.
    We have the Brazil cotton case still hanging over our 
heads. We have elected now to deal with that by subsidizing 
Brazilian cotton producers as opposed to reforming our own 
domestic cotton program, which we should be doing, but also the 
so-called amber box payments under the Title I commodity 
programs and the work that needs to be there.
    Given my history with the multilateral round, and having 
talked to many of the trade ambassadors that are involved in 
those ongoing conversations, so many times the roads do come 
back to our farm policy, both here and in the E.U.
    I know the Administration is anticipating engaging the 
Congress when it comes to the next Farm Bill and the work and 
some of the changes that we have to pursue in order to assist 
an important trade agenda at the same time.
    So I humbly advise, let's not take our eye off of the Doha 
Roundeven though it has been tough the last few years trying to 
get it back on track. I know there are a lot of interested 
people to see what we can do to advance that, and that we don't 
all just become all-consuming with these bilaterals right now. 
You can understand why, given that they are in front of us and 
pending. Hopefully, we will be able to advance on those later 
this year, too.
    Thank you again.
    Chairman CAMP. Well, thank you.
    Mr. Paulsen is recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman. And thank you, Mr. 
Ambassador, for your leadership on this issue. We really do 
appreciate it.
    Just real quickly, you mentioned one of the benefits we 
have of the South Korea trade agreement is going to be our 
ability to engage in more services, having a market there. The 
same thing exists, obviously, with Colombia and Panama in 
particular. I mean, 70 percent of their GDP comes from the 
service sector, and it is really important, I think, to give 
the U.S. access, a market foothold there. So we have got 
tremendous opportunity there.
    But I want to ask a question about the potential benefits 
of what you might see with the Trans-Pacific Partnership, and 
also what the timing of that might be. We have participants 
right now in the TPP that include four of our existing trade 
agreement partners, and then four new countries which do not 
have trade agreements with us right now.
    So with respect to our existing trade partners, in what 
ways do you see the TPP would add economic value to our 
existing trade agreements? And with respect to our potential 
new agreement partners, what areas do you think those talks 
might offer us the most promise for American jobs and exports 
in the future?
    Ambassador KIRK. Well, in the broader sense--and thank you 
for your question--we think the TPP is an extraordinary 
opportunity for the United States because it is our belief and 
part of our rationale in reaching the decision to engage with 
this original group of countries is our hope is obviously that 
this will effectively become the free trade agreement, at least 
of those 21-member APEC economies, and perhaps the architecture 
for what could be the largest, most dynamic trading area in the 
world in Southeast Asia.
    With respect to our trading partners, obviously, we want to 
be assertive. We are not looking to re-trade our existing 
market share. But there are lots of areas that we can further 
enhance trade by looking at regulatory coherence, addressing 
some of the non-tariff barriers. Obviously, with these new 
markets, with Malaysia, Vietnam, those are an extraordinary for 
American businesses across the board.
    We have a very ambitious goal. I don't know--I mean, it is 
sort of our aspirational goal. But the thought was, start with 
a small enough number of like-minded economies, work very 
aggressively, put everything on the table, and let's just see 
where we are by the time that our leaders meet at the APEC 
leaders forum in the fall.
    And at least right now we are on that pace. But I will 
admit this next meeting in Chile is the first time we will 
begin to table offers, so this is where the negotiations will 
become a little more challenging.
    Mr. PAULSEN. And maybe I can just ask, because I know the 
President's own economic council and the U.S. business 
community have both urged the goal of seeking a conclusion to 
the TPP agreement by maybe even this November, when the United 
States is going to host APEC, I think, in the President's home 
state of Hawaii.
    Do you agree that that goal of concluding the TPP agreement 
would be an important, I mean, concrete deliverable in that 
time frame, if possible?
    Ambassador KIRK. If we could meet that goal, that would be 
exceptional. But again, there are a lot of moving parts. I want 
to make--right now, I mean, the spirit of engagement among all 
of the economies is the right mood. But I am also tempering 
this a little bit because I know now we are getting into the 
guts of it.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Chairman CAMP. All right. Thank you.
    Mr. Berg is recognized.
    Mr. BERG. Ambassador Kirk, thank you for being here today.
    Now, you and I both know how critical trade is for the 
United States and for us to recover from our current situation. 
And I know there is a lot of concern we have heard today, and 
just concern by the American public about trade.
    The National Export Initiative, the goal of doubling 
exports, is a laudable goal and certainly one that I support. 
But in order to make that happen, we need to get the American 
people behind us. And you have done a tremendous effort in 
going out and speaking on the advantages of trade across this 
country, and I commend you for your efforts in doing that.
    But it seems to me--and maybe you can discuss in more 
detail how yourself and the Administration are going to get the 
American people behind more trade, especially the three trade 
agreements that we are looking at right now.
    Ambassador KIRK. Thank you for your kind words about our 
work. One, I think--and I have heard from all of you, and I 
know we have differences, maybe on Panama and Colombia. What I 
haven't heard, refreshingly, from any of you is a difference we 
all understand right now.
    What the American public care about right now, as Mr. 
Rangel said, it is jobs. It is jobs. What is in it for me? And 
one, we have got to do a better job of articulating to the 
public how, when we provide opportunities for Americans to sell 
what we make, grow, produce around the world. That can help 
create jobs here.
    And for whatever reason, we have had a political 
environment that Americans are a little more skeptical of that, 
but I think having an honest discussion with the American 
public and an honest presentation of the reality of what trade 
does and doesn't do.
    But I do think it is important--and I trust you will not 
take this as a political statement--keeping faith with the 
commitment we have made to the American public. And I do think 
renewing trade adjustment assistance is one way to do that, to 
say to those communities that feel that they have gotten the 
short end of this that you have heard us and you are going to 
honor your commitments.
    I think making sure that we honor our commitments to those 
poorest countries in the world. The work that we do in 
enforcement--when I take on China and stand up to them for 
American steelworkers, we absolutely got criticized. But we 
didn't spark a trade war. And in fact, every one of those tire 
companies, for example, has increased capacity, has added 
workers, and are making more tires.
    So I think listening to the American public, being 
responsive to those that have concerns and honestly addressing 
those, making sure that we enforce our engagements, and then 
make sure we draw a connection between opening up markets 
around the world and creating jobs here at home.
    And the more that we do that with one voice and we stop 
attacking one another here in Congress, the better chance we 
are going to have to convince the American public of the wisdom 
of what we are doing.
    Chairman CAMP. All right. Thank you. Thank you very much. I 
want to thank Ambassador Kirk for his time this morning and for 
his testimony, and also thank all of the members for their 
thoughtful questions.
    And let me note for Ambassador Kirk that members may submit 
questions for the record. And if they do, I hope you will 
provide a prompt and full response. Ambassador Kirk has--all 
right. I guess we are not quite done.
    We have a few more minutes, and we have a member who just 
came, Mr. Pascrell. So he is recognized for 3 minutes. We have 
had members that have been going back and forth to the Budget 
Committee----
    Ambassador KIRK. I understand.
    Chairman CAMP. As members of the Ways and Means Committee 
are on that committee also.
    Ambassador KIRK. I frankly am flattered by the attendance 
and the number of members that have stayed for being here. I 
really appreciate it.
    Chairman CAMP. Thank you. Mr. Pascrell is recognized for 3 
minutes.
    Mr. PASCRELL. I appreciate that, Mr. Chairman. And thank 
you, Ambassador. We discussed one of my major issues earlier 
before I went to the committee.
    Right off the bat, I want to stress how important it is 
that the Congress pass an extension of our trade adjustment 
assistance program. I think that is important to everything we 
have worked on in the last 14 years. It is Critical. Would you 
agree?
    Ambassador KIRK. Yes, sir. You may have missed my closing 
remarks, but----
    Mr. PASCRELL. I am disappointed that we were going to bring 
a bill to the floor yesterday extending the programs and, of 
course, it didn't happen. It was pulled. I strongly believe we 
can accomplish this in a fiscally responsible way without 
cutting the vital worker training programs we are trying to 
protect.
    I want to thank you for being here. I believe we have been 
taking some important steps. We still have work to do to ensure 
that our trade policy reflects our values and the benefits of 
trade. I told you this morning what my prism is to look through 
on every trade deal. I will not back off from that. You know 
where I stand. It is not going to be a fait accompli by any 
stretch of the imagination, and I respect your candidness on 
the matter.
    The Trans-Pacific Partnership negotiations really represent 
the Obama Administration's best opportunity to reshape our 
trade policy. It also presents significant challenges. I have 
two questions regarding the TPP.
    One of the countries involved in negotiations, Vietnam, is 
classified by our own government as a ``non-market economy.'' 
They don't have a democratic government, and many of their 
major industries are controlled by the state.
    As you negotiate the Trans-Pacific Partnership, what 
efforts are you making with regards to state-owned enterprises 
in countries like Vietnam? We have this problem in a lot of 
countries, which are owned or controlled by foreign 
governments. These are very serious problems. This is very 
serious to our competitiveness and leveling the field. What 
will you do if these countries will not be able to enter our 
market, if they won't be able to enter our market and act in 
their government's national interest instead of the company's 
commercial interest?
    Ambassador KIRK. Thank you for your candor both now and 
this morning. I would say to you one of the reasons we are 
excited about this TPP. It is an opportunity to bring a country 
like Vietnam into this global system. One of the areas that we 
are frankly looking to expand on in our investment chapter is 
to take this opportunity to address the challenge of state-
owned economies.
    And that is one of the issues that we are specifically 
going to engage Vietnam on that. As well, it's for some other 
countries, the challenges brought on by some of these 
indigenous innovation policies.
    Mr. PASCRELL. Thank you. Thank you, Mr. Chairman, for your 
courtesy.
    Chairman CAMP. Thank you. Thanks again, Ambassador Kirk. 
You have spoken to many elements of the Administration's trade 
policy agenda, and I am encouraged by your statements on the 
South Korea agreement.
    I am disappointed that the Administration has not been more 
forward-leaning on plans for Colombia and Panama's trade 
agreements as members of this committee, including myself, have 
repeatedly said American employers, workers, farmers, ranchers, 
are put at a disadvantage every day that we delay here in 
Washington.
    So I continue to hope that the Administration will lay out 
a clear plan with specific areas of concern, a specific 
timetable for considering all three of these agreements in 
short order. And I strongly believe that we should consider all 
of the agreements, all three of them, in the next 6 months, and 
hope that we can work together to make that happen. Again, 
thank you for your testimony today.
    But for now, the committee is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
    [Questions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] T5569.016
    
    [GRAPHIC] [TIFF OMITTED] T5569.017
    
    [GRAPHIC] [TIFF OMITTED] T5569.018
    
    [GRAPHIC] [TIFF OMITTED] T5569.019
    
    [GRAPHIC] [TIFF OMITTED] T5569.020
    
    [GRAPHIC] [TIFF OMITTED] T5569.021
    
    [GRAPHIC] [TIFF OMITTED] T5569.022
    
    [GRAPHIC] [TIFF OMITTED] T5569.023
    
    [GRAPHIC] [TIFF OMITTED] T5569.024
    
    [GRAPHIC] [TIFF OMITTED] T5569.025
    
    [GRAPHIC] [TIFF OMITTED] T5569.026
    

                                 <F-dash>

    [Submissions for the Record follow:]
                    National Pork Producers Council

[GRAPHIC] [TIFF OMITTED] T5569.030

[GRAPHIC] [TIFF OMITTED] T5569.031

[GRAPHIC] [TIFF OMITTED] T5569.032

[GRAPHIC] [TIFF OMITTED] T5569.033

[GRAPHIC] [TIFF OMITTED] T5569.034


                                 <F-dash>
                 National Association of Manufacturers

[GRAPHIC] [TIFF OMITTED] T5569.035

[GRAPHIC] [TIFF OMITTED] T5569.036

[GRAPHIC] [TIFF OMITTED] T5569.037

[GRAPHIC] [TIFF OMITTED] T5569.038

[GRAPHIC] [TIFF OMITTED] T5569.039

[GRAPHIC] [TIFF OMITTED] T5569.040

[GRAPHIC] [TIFF OMITTED] T5569.041

[GRAPHIC] [TIFF OMITTED] T5569.042

[GRAPHIC] [TIFF OMITTED] T5569.043

[GRAPHIC] [TIFF OMITTED] T5569.044

[GRAPHIC] [TIFF OMITTED] T5569.045

[GRAPHIC] [TIFF OMITTED] T5569.046


                                 <F-dash>
                 National Association of Wheat Growers 

[GRAPHIC] [TIFF OMITTED] T5569.047

[GRAPHIC] [TIFF OMITTED] T5569.048

[GRAPHIC] [TIFF OMITTED] T5569.049

[GRAPHIC] [TIFF OMITTED] T5569.050

[GRAPHIC] [TIFF OMITTED] T5569.051

[GRAPHIC] [TIFF OMITTED] T5569.052

[GRAPHIC] [TIFF OMITTED] T5569.053


                                 <F-dash>
                       U.S. Chamber of Commerce 

[GRAPHIC] [TIFF OMITTED] T5569.054

[GRAPHIC] [TIFF OMITTED] T5569.055

[GRAPHIC] [TIFF OMITTED] T5569.056

[GRAPHIC] [TIFF OMITTED] T5569.057

[GRAPHIC] [TIFF OMITTED] T5569.058

[GRAPHIC] [TIFF OMITTED] T5569.059

[GRAPHIC] [TIFF OMITTED] T5569.060

[GRAPHIC] [TIFF OMITTED] T5569.061

[GRAPHIC] [TIFF OMITTED] T5569.062

[GRAPHIC] [TIFF OMITTED] T5569.063

[GRAPHIC] [TIFF OMITTED] T5569.064

[GRAPHIC] [TIFF OMITTED] T5569.065


                                 <F-dash>
                Emergency Committee for American Trade 

[GRAPHIC] [TIFF OMITTED] T5569.066

[GRAPHIC] [TIFF OMITTED] T5569.067

[GRAPHIC] [TIFF OMITTED] T5569.068

[GRAPHIC] [TIFF OMITTED] T5569.069

[GRAPHIC] [TIFF OMITTED] T5569.070

[GRAPHIC] [TIFF OMITTED] T5569.071

[GRAPHIC] [TIFF OMITTED] T5569.072

[GRAPHIC] [TIFF OMITTED] T5569.073

[GRAPHIC] [TIFF OMITTED] T5569.074

[GRAPHIC] [TIFF OMITTED] T5569.075


                                 <F-dash>
                       American Jewish Committee 

[GRAPHIC] [TIFF OMITTED] T5569.076


                                 <F-dash>
                 National District Export Council Inc. 

[GRAPHIC] [TIFF OMITTED] T5569.077

[GRAPHIC] [TIFF OMITTED] T5569.078

[GRAPHIC] [TIFF OMITTED] T5569.079


                                 <F-dash>
                  California Table Grape Commission-1 

[GRAPHIC] [TIFF OMITTED] T5569.080


                                 <F-dash>
                  California Table Grape Commission-2 

[GRAPHIC] [TIFF OMITTED] T5569.081


                                 <F-dash>
                National Oilseed Processors Association 

[GRAPHIC] [TIFF OMITTED] T5569.082

[GRAPHIC] [TIFF OMITTED] T5569.083

[GRAPHIC] [TIFF OMITTED] T5569.084

[GRAPHIC] [TIFF OMITTED] T5569.085

[GRAPHIC] [TIFF OMITTED] T5569.086

[GRAPHIC] [TIFF OMITTED] T5569.087

[GRAPHIC] [TIFF OMITTED] T5569.088


                                 <F-dash>
                        National Potato Council 

[GRAPHIC] [TIFF OMITTED] T5569.089

[GRAPHIC] [TIFF OMITTED] T5569.090


                                 <F-dash>
                   California Chamber of Commerce-1 

[GRAPHIC] [TIFF OMITTED] T5569.091

[GRAPHIC] [TIFF OMITTED] T5569.092

[GRAPHIC] [TIFF OMITTED] T5569.093

[GRAPHIC] [TIFF OMITTED] T5569.094

[GRAPHIC] [TIFF OMITTED] T5569.095


                                 <F-dash>
                   California Chamber of Commerce-2 

[GRAPHIC] [TIFF OMITTED] T5569.096


                                 <F-dash>
                  Retail Industry Leaders Association 

[GRAPHIC] [TIFF OMITTED] T5569.097

[GRAPHIC] [TIFF OMITTED] T5569.098

[GRAPHIC] [TIFF OMITTED] T5569.099

[GRAPHIC] [TIFF OMITTED] T5569.100

[GRAPHIC] [TIFF OMITTED] T5569.101

[GRAPHIC] [TIFF OMITTED] T5569.102

[GRAPHIC] [TIFF OMITTED] T5569.103

[GRAPHIC] [TIFF OMITTED] T5569.104

[GRAPHIC] [TIFF OMITTED] T5569.105


                                 <F-dash>
           United States Council for International Business 

[GRAPHIC] [TIFF OMITTED] T5569.106

[GRAPHIC] [TIFF OMITTED] T5569.107

[GRAPHIC] [TIFF OMITTED] T5569.108

[GRAPHIC] [TIFF OMITTED] T5569.109

[GRAPHIC] [TIFF OMITTED] T5569.110


                                 <F-dash>
        Securities Industry and Financial Markets Association-1 

[GRAPHIC] [TIFF OMITTED] T5569.111

[GRAPHIC] [TIFF OMITTED] T5569.112

[GRAPHIC] [TIFF OMITTED] T5569.113

[GRAPHIC] [TIFF OMITTED] T5569.114

[GRAPHIC] [TIFF OMITTED] T5569.115

[GRAPHIC] [TIFF OMITTED] T5569.116

[GRAPHIC] [TIFF OMITTED] T5569.117

[GRAPHIC] [TIFF OMITTED] T5569.118

[GRAPHIC] [TIFF OMITTED] T5569.119

[GRAPHIC] [TIFF OMITTED] T5569.120

[GRAPHIC] [TIFF OMITTED] T5569.121


                                 <F-dash>
        Securities Industry and Financial Markets Association-2 

[GRAPHIC] [TIFF OMITTED] T5569.122

[GRAPHIC] [TIFF OMITTED] T5569.123

[GRAPHIC] [TIFF OMITTED] T5569.124

[GRAPHIC] [TIFF OMITTED] T5569.125

[GRAPHIC] [TIFF OMITTED] T5569.126

[GRAPHIC] [TIFF OMITTED] T5569.127

[GRAPHIC] [TIFF OMITTED] T5569.128

[GRAPHIC] [TIFF OMITTED] T5569.129

[GRAPHIC] [TIFF OMITTED] T5569.130

[GRAPHIC] [TIFF OMITTED] T5569.131

[GRAPHIC] [TIFF OMITTED] T5569.132

[GRAPHIC] [TIFF OMITTED] T5569.133

[GRAPHIC] [TIFF OMITTED] T5569.134


                                 <F-dash>
                 International Dairy Foods Association

[GRAPHIC] [TIFF OMITTED] T5569.135

[GRAPHIC] [TIFF OMITTED] T5569.136

[GRAPHIC] [TIFF OMITTED] T5569.137

[GRAPHIC] [TIFF OMITTED] T5569.138

[GRAPHIC] [TIFF OMITTED] T5569.139

[GRAPHIC] [TIFF OMITTED] T5569.140


                                 <F-dash>
                Association of Global Automakers, Inc. 

[GRAPHIC] [TIFF OMITTED] T5569.141


                                 <F-dash>
         Pharmaceutical Research and Manufacturers of America 

[GRAPHIC] [TIFF OMITTED] T5569.142

[GRAPHIC] [TIFF OMITTED] T5569.143

[GRAPHIC] [TIFF OMITTED] T5569.144

[GRAPHIC] [TIFF OMITTED] T5569.145

[GRAPHIC] [TIFF OMITTED] T5569.146

[GRAPHIC] [TIFF OMITTED] T5569.147

[GRAPHIC] [TIFF OMITTED] T5569.148

[GRAPHIC] [TIFF OMITTED] T5569.149


                                 <F-dash>
                       General Electric Company 

[GRAPHIC] [TIFF OMITTED] T5569.150

[GRAPHIC] [TIFF OMITTED] T5569.151

[GRAPHIC] [TIFF OMITTED] T5569.152

[GRAPHIC] [TIFF OMITTED] T5569.153

[GRAPHIC] [TIFF OMITTED] T5569.154


                                 <F-dash>
                American Federation of Labor & Congress
                      of Industrial Organizations 

[GRAPHIC] [TIFF OMITTED] T5569.155

[GRAPHIC] [TIFF OMITTED] T5569.156

[GRAPHIC] [TIFF OMITTED] T5569.157

[GRAPHIC] [TIFF OMITTED] T5569.158


                                 <F-dash>
                  Public Citizen's Global Trade Watch

[GRAPHIC] [TIFF OMITTED] T5569.159

[GRAPHIC] [TIFF OMITTED] T5569.160

[GRAPHIC] [TIFF OMITTED] T5569.161

[GRAPHIC] [TIFF OMITTED] T5569.162

[GRAPHIC] [TIFF OMITTED] T5569.163

[GRAPHIC] [TIFF OMITTED] T5569.164

[GRAPHIC] [TIFF OMITTED] T5569.165

[GRAPHIC] [TIFF OMITTED] T5569.166

[GRAPHIC] [TIFF OMITTED] T5569.167

[GRAPHIC] [TIFF OMITTED] T5569.168


                                 <F-dash>
             American Manufacturing Trade Action Coalition 

[GRAPHIC] [TIFF OMITTED] T5569.169

[GRAPHIC] [TIFF OMITTED] T5569.170

[GRAPHIC] [TIFF OMITTED] T5569.171

[GRAPHIC] [TIFF OMITTED] T5569.172

[GRAPHIC] [TIFF OMITTED] T5569.173

[GRAPHIC] [TIFF OMITTED] T5569.174

[GRAPHIC] [TIFF OMITTED] T5569.175

[GRAPHIC] [TIFF OMITTED] T5569.176

[GRAPHIC] [TIFF OMITTED] T5569.177

[GRAPHIC] [TIFF OMITTED] T5569.178


                                 <F-dash>
                      U.S.-China Business Council 

[GRAPHIC] [TIFF OMITTED] T5569.179

[GRAPHIC] [TIFF OMITTED] T5569.180

[GRAPHIC] [TIFF OMITTED] T5569.181

[GRAPHIC] [TIFF OMITTED] T5569.182

[GRAPHIC] [TIFF OMITTED] T5569.183

[GRAPHIC] [TIFF OMITTED] T5569.184

[GRAPHIC] [TIFF OMITTED] T5569.185

[GRAPHIC] [TIFF OMITTED] T5569.186

[GRAPHIC] [TIFF OMITTED] T5569.187

[GRAPHIC] [TIFF OMITTED] T5569.188


                                 <F-dash>
                           Intel Corporation 

[GRAPHIC] [TIFF OMITTED] T5569.189

[GRAPHIC] [TIFF OMITTED] T5569.190

[GRAPHIC] [TIFF OMITTED] T5569.191

[GRAPHIC] [TIFF OMITTED] T5569.192

[GRAPHIC] [TIFF OMITTED] T5569.193

[GRAPHIC] [TIFF OMITTED] T5569.194

[GRAPHIC] [TIFF OMITTED] T5569.195

[GRAPHIC] [TIFF OMITTED] T5569.196

[GRAPHIC] [TIFF OMITTED] T5569.197

[GRAPHIC] [TIFF OMITTED] T5569.198

[GRAPHIC] [TIFF OMITTED] T5569.199

[GRAPHIC] [TIFF OMITTED] T5569.200

[GRAPHIC] [TIFF OMITTED] T5569.201


                                 <F-dash>
                                  UPS

[GRAPHIC] [TIFF OMITTED] T5569.202

[GRAPHIC] [TIFF OMITTED] T5569.203

[GRAPHIC] [TIFF OMITTED] T5569.204

[GRAPHIC] [TIFF OMITTED] T5569.205

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
